App. 1
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

Argued November 16, 2020

Decided January 15, 2021

No. 19-5328
BILAL ABDUL KAREEM,
APPELLANT
V.

GINA CHERI HASPEL, DIRECTOR OF THE
CENTRAL INTELLIGENCE AGENCY, ET AL.,
APPELLEES
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Columbia
(No. 1:17-cv-00581)
-----------------------------------------------------------------------

Tara J. Plochocki argued the cause for appellant.
With her on the briefs were Eric L. Lewis and Jeffrey
D. Robinson.
Joseph Margulies was on the brief for amici curiae
Former State and Federal Prosecutors in support of appellant.
Santha Sonenberg was on the brief for amicus curiae Russian Expert Professor William Bowring in support of appellant.
Hyland Hunt and Ruthanne M Deutsch were on
the brief for amici curiae Victims and Families of

App. 2
Victims of State-Sponsored Violence in Northern Ireland in support of appellant.
A. Richard Ellis was on the brief for amicus curiae
Professor Brenner Fissell in support of appellant.
Bradley Hinshelwood, Attorney, U.S. Department
of Justice, argued the cause for appellees. With him on
the brief was H. Thomas Bryon, III, Attorney.
Before: SRINIVASAN, Chief Judge, HENDERSON and
MILLETT, Circuit Judges.
Opinion for the Court filed by Circuit Judge HENDERSON.

KAREN LECRAFT HENDERSON, Circuit Judge: Plaintiff Bilal Abdul Kareem is a United States citizen who
works in Syria as a journalist. Because five aerial
bombings allegedly occurred in Kareem’s vicinity in
Syria during the summer of 2016, Kareem claims that
he has mistakenly been placed on a purported list of
individuals the United States has determined are terrorists who may be targeted and killed. Kareem seeks
a declaration that his alleged inclusion on the purported list is unconstitutional and an injunction barring the United States government from including him
on the purported list without providing additional procedural protections. The district court, after concluding
that Kareem had established standing sufficient to
survive a motion to dismiss and that some of Kareem’s
claims were justiciable, dismissed the complaint pursuant to the application of the state secrets privilege.
The critical question before us is whether Kareem has

App. 3
Article III standing to seek prospective relief as, without Kareem’s standing, we lack jurisdiction to consider
the other issues raised in his appeal. The complaint
fails to allege plausibly that any of the five aerial
bombings were attributable to the United States and
specifically targeted Kareem. Accordingly, his standing
theory does not cross the line from conceivable to plausible. Thus, we vacate the district court’s dismissal and
remand with instructions to dismiss the complaint on
the ground that Kareem lacks Article III standing.
I.

BACKGROUND
A.

Facts

Kareem works as a journalist in Syria for On the
Ground Network (OGN), a news organization that provides “access to the views of the anti-Assad rebels.”
Compl. at ¶ 45, Kareem v. Haspel, 412 F. Supp. 3d 52
(D.D.C. 2019) (No. 17-cv-581), ECF No. 1. Kareem’s
complaint alleges that he “posts interviews with rebel
fighters on social media outlets” and “is one of the only
Western journalists in the region given access to these
individuals to interview them.” Id.
The complaint further alleges that, while performing his work as a journalist in Syria in 2016, Kareem
“narrowly missed being hit by military strikes” five different times. Id. at ¶ 46. Four of the alleged strikes occurred in June 2016. First, in Idlib City, after Kareem
“heard aircraft approaching,” an airstrike hit OGN’s
office building. Id. at ¶ 47. Second, after Kareem heard
“drones buzzing above,” a strike hit an area near

App. 4
Aleppo where Kareem and his cameraman had recently finished conducting an interview. Id. at ¶ 48.
Third, “[t]he vehicle of Kareem and his staff was struck
and destroyed by a drone-launched Hellfire missile.”
Id. at ¶ 49. At the time of the third strike, Kareem was
sitting in a different, nearby vehicle which was “hurled
into the air by the force of the blast” and “flipped upside down.” Id. Fourth, a “missile” again hit OGN’s office building in Idlib City. Id. at ¶ 50. Fifth, in August
2016, in an “area [that] had recently changed hands
from [Syrian] government control to rebel hands,”
Kareem and his co-workers were in his car “when there
was a huge blast only yards away from the car.” Id. at
¶ 51.
As a result of the five near-miss experiences in a
three-month period, Kareem alleges “[u]pon information and belief ’ that he “was the specific target” of
each of the strikes and that his name is included on a
list of targets for U.S. military action.1 Id. at ¶ 52. According to the complaint, the United States has publicly disclosed that it “conducts lethal strikes targeted
at individuals, using remotely piloted aircraft, among
other weapons, and that targets are selected . . . as a
result of a ‘process’ in which targets are nominated by
one or more defendants.” Id. at ¶ 55. On May 22, 2013,
then-President Barack Obama issued a document that
outlined a process for designating individuals as terrorist targets approved for lethal action (Presidential
1

Kareem refers to the U.S. government’s alleged list of terrorist targets approved for lethal action as the “Kill List.” Id. at
¶ 1.

App. 5
Policy Guidance). Zaidan v. Trump, 317 F. Supp. 3d 8,
15 (D.D.C. 2018) (citing Compl. at ¶ 57).2 According to
the complaint, the Presidential Policy Guidance includes guidance on the “necessary preconditions for
taking lethal action” and on the designation of individuals as targets based only on “metadata” collected from
electronic devices (i.e., without knowing the target’s
identity). Id. (citing Compl. at ¶¶ 61, 63).
Because of Kareem’s proximity to the five aerial
bombings described in the complaint, Kareem alleges
that his name is on a list of individuals the United
States has determined are terrorists and may be targeted and killed. See Kareem v. Haspel, 412 F. Supp. 3d
52, 55 (D.D.C. 2019). Kareem alleges that he was never
notified of his inclusion on the list nor provided an opportunity to challenge his inclusion.
B.

Procedure

In March 2017, Kareem filed suit against the Central Intelligence Agency (CIA), the Department of Defense (DOD), the Department of Homeland Security
(DHS), the Department of Justice (DOJ) and the
United States, as well as the CIA Director, the DOD
and DHS Secretaries, the Attorney General, the
2

See also Procedures for Approving Direct Action Against
Terrorist Targets Located Outside the United States and Areas of
Active Hostilities (May 22, 2013), https://www.justice.gov/oip/foialibrary/procedures_for_approving_direct_action_against_terrorist_
targets/download. On August 6, 2016, a redacted version of the
Presidential Policy Guidance was declassified and made public.
Zaidan, 317 F. Supp. 3d at 15.

App. 6
National Security Advisor and the Director of National
Intelligence (DNI), all in their official capacities.3 The
complaint alleges that Kareem’s purported inclusion
on a list of terrorist targets approved for lethal force
violated the Administrative Procedure Act, 5 U.S.C.
§§ 701–706. It asserts six claims:

3

•

Count 1: Inclusion of Kareem on the Kill
List was arbitrary, capricious and an
abuse of discretion.

•

Count 2: Inclusion of Kareem on the Kill
List was not in accordance with law.

•

Count 3: Inclusion of Kareem on the Kill
List exceeded the defendants’ statutory
authority.

•

Count 4: Inclusion of Kareem on the Kill
List violated due process because Kareem
was not provided notice nor given an opportunity to challenge his inclusion.

•

Count 5: Inclusion of Kareem on the Kill
List violated the First Amendment because it “has the effect of restricting and
inhibiting [his] exercise of free speech
and [his] ability to function as [a]

Kareem filed suit with a co-plaintiff, Ahmad Muaffaq Zaidan.
The two sued President Trump in addition to the other defendants but the district court dismissed those claims because the
President is not an agency subject to the Administrative Procedure Act. Zaidan, 317 F. Supp. 3d at 22; see Franklin v. Massachusetts, 505 U.S. 788,796, 800–801 (1992). The district court also
dismissed Zaidan’s claims for lack of standing, Zaidan, 317
F. Supp. 3d at 18–19, and he did not appeal. Accordingly, Kareem
is the sole remaining plaintiff.

App. 7
journalist[ ] entitled to freedom of the
press.” Compl. at ¶ 85.
•

Count 6: Inclusion of Kareem on the Kill
List violated the Fourth and Fifth
Amendments because it constituted an illegal seizure and sought to “deprive
[Kareem] of life without due process of
law.” Id. at ¶ 91.

Kareem seeks (1) a declaration that his inclusion on
the terrorist target list is unlawful and/or unconstitutional, (2) an injunction barring the defendants from
including him on the terrorist target list without
providing additional procedural protections and (3) an
injunction requiring the defendants to remove him
from the terrorist target list and/or stop targeting him
for lethal action.
On June 5, 2017, the defendants moved to dismiss,
arguing that Kareem lacked standing and that his
claims presented non-justiciable political questions.
On June 13, 2018, the district court granted in part
and denied in part the motion to dismiss. See Zaidan,
317 F. Supp. 3d at 13. Specifically, the district court
concluded that (i) Kareem had plausibly alleged
standing sufficient to survive a motion to dismiss, id.
at 19–21; (ii) Counts 1, 2 and 3 were non justiciable
under the political question doctrine, id. at 25–26; and
(iii) Counts 4, 5 and 6 were justiciable under the political question doctrine, id. at 26–29.
As relevant here, the district court found that
“[a]ccepting all well-pled allegations as true, Mr.

App. 8
Kareem has plausibly alleged that he was in 2016 a
target on the Kill List with evidence that makes it
‘more than a sheer possibility.’ ” Id. at 20 (quoting
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). The district
court reached its conclusion on the basis that Kareem
“alleges that the United States engages in targeted
drone strikes, that he has been the near victim of a military strike on five occasions (at least one of which included the use of a drone), and that he is a journalist
who is often in contact with rebel or terrorist organizations.” Id. (footnote omitted). The district court
acknowledged that “[d]efendants set forth other plausible alternatives, such as the fact that Mr. Kareem
could have been targeted by Syria for reporting on
anti-Assad efforts,” but concluded that “their argument
does not make it implausible that the attacks were a
result of U.S. action.” Id.
After the district court’s resolution of the motion
to dismiss, the parties discussed potential pre-trial
resolution. Kareem, 412 F. Supp. 3d at 55. “Despite two
months of discussions, the parties were unable to resolve the litigation.” Id. At that point, Kareem asked to
begin discovery and the defendants informed the district court that they were considering a second motion
to dismiss based on the state secrets privilege.
On January 30, 2019, the defendants filed a motion to dismiss pursuant to the state secrets privilege.
Id. at 56. They submitted public affidavits from thenActing Secretary of Defense Patrick Shanahan and
then-DNI Daniel Coats, addressing the invocation of
the state secrets privilege. The defendants also

App. 9
submitted classified declarations from the same officials that provided the district court, in camera, with
additional information relevant to the assertion of the
privilege.
On September 24, 2019, the district court dismissed the complaint pursuant to the state secrets
privilege. Id. at 62. First, it found that the defendants
satisfied the three procedural requirements for invoking the state secrets privilege.4 Id. at 56–57. Second,
the district court determined that “the state secrets
privilege bars disclosure of the requested information
to Mr. Kareem because disclosure would present a reasonable danger to national security.” Id. at 61.5 Third,

4

Specifically, (i) the privilege was asserted by the United
States government; (ii) the claim of privilege was made through
formal declarations by the heads of the agencies responsible for
the information; and (iii) the agency heads personally reviewed
the relevant information and determined that invoking the state
secrets privilege was warranted. Id. at 56–57.
5
Kareem had sought discovery on three topics: (1) whether
the United States has targeted Kareem for lethal force and, if so,
on what basis; (2) the process the United States used to target
Kareem and what process would be used in the event he remains
a target; and (3) whether the United States targeted Kareem in
the airstrikes alleged in the complaint. Id. at 57–58. Upon reviewing the public and classified declarations, the district court found
that “disclosure of [the privileged] information . . . and the means,
sources and methods of intelligence gathering in the context of
this case would undermine the government’s intelligence capabilities and compromise national security.” Id. at 58 (alteration in
original) (quoting Al-Haramain Islamic Found, Inc. v. Bush, 507
F.3d 1190,1204 (9th Cir. 2007)). It noted that disclosure could (1)
“hinder the United States’ military operations in Syria”; (2) pose
a threat to intelligence sources and methods; and (3) result in an

App. 10
the district court concluded that application of the
state secrets privilege required dismissal of Kareem’s
complaint because “there is no feasible way to litigate
[the United States’] alleged liability without creating
an unjustifiable risk of divulging state secrets.” Id. (alteration in original) (quoting Mohamed v. Jeppesen
Dataplan, Inc., 614 F.3d 1070, 1087 (9th Cir. 2010)).
Kareem timely appealed the district court’s dismissal. On appeal, Kareem argues that the Shanahan
and Coats declarations do not justify non-disclosure of
the requested information; and even if they do, the
state secrets privilege cannot foreclose Kareem’s exercise of his Fifth Amendment right to due process. The
defendants defend the district court’s conclusion that
the state secrets privilege required dismissal. They
also reassert their arguments (1) that the complaint’s
allegations are insufficient to establish standing and
(2) that Kareem’s claims present non justiciable political questions.
II.

ANALYSIS

We review de novo a district court’s determination
that a plaintiff has standing. See Equal Rights Ctr. v.
Post Props., Inc., 633 F.3d 1136, 1138 (D.C. Cir. 2011).
Here, the complaint fails to allege a sufficient factual
basis to create a plausible inference that the described
missile attacks were attributable to the United States
and specifically targeted Kareem. Accordingly, Kareem
individual’s altering his activities or otherwise evading detection
or capture based on the disclosed information. Id.

App. 11
has failed to establish standing and we vacate and remand for dismissal on that basis.6
Article III limits the jurisdiction of federal courts
to “Cases” or “Controversies.” See U.S. Const. art. III,
§ 2, cl. 1. As the United States Supreme Court has
made clear, one “essential and unchanging part of the
case-or-controversy requirement” is that a plaintiff
must establish Article III standing to sue. Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992). A plaintiff
establishes Article III standing by showing that he
seeks relief from an injury that is “concrete, particularized, and actual or imminent; fairly traceable to the
challenged action; and redressable by a favorable ruling.” Clapper v. Amnesty Int’l USA, 568 U.S. 398, 409
(2013) (quoting Monsanto Co. v. Geertson Seed Farms,
561 U.S. 139, 149 (2010)). Because Kareem’s complaint
“seeks prospective declaratory and injunctive relief,
he must establish an ongoing or future injury that is
‘certainly impending’; he may not rest on past injury.”
Arpaio v. Obama, 797 F.3d 11, 19 (D.C. Cir. 2015) (quoting Clapper, 568 U.S. at 409). Importantly, the standing inquiry is “especially rigorous when reaching the
merits of the dispute would force [a court] to decide
whether an action taken by one of the other two
branches of the Federal Government was unconstitutional,” particularly “in the fields of intelligence

6

Because we determine that Kareem has not established
standing, we do not reach the applicability of the political question doctrine or the state secrets privilege to this case.

App. 12
gathering and foreign affairs.” Clapper, 568 U.S. at
408–09 (internal quotations omitted).
Because standing is a threshold jurisdictional requirement, it may be questioned at any time during
the litigation. “[E]ach element [of standing] must be
supported in the same way as any other matter on
which the plaintiff bears the burden of proof, L e., with
the manner and degree of evidence required at the successive stages of the litigation.” Lujan, 504 U.S. at 561.
Consequently, at the motion to dismiss stage, we “accept the well-pleaded factual allegations as true and
draw all reasonable inferences from those allegations
in the plaintiff ’s favor,” Arpaio, 797 F.3d at 19, but
“[t]hreadbare recitals of the elements of [standing],
supported by mere conclusory statements, do not suffice,” id. (alteration in original) (quoting Iqbal, 556 U.S.
at 678). We do not assume the truth of legal conclusions, Iqbal, 556 U.S. at 678, nor do we “accept inferences that are unsupported by the facts set out in the
complaint,” Islamic Am. Relief Agency v. Gonzales, 477
F.3d 728, 732 (D.C. Cir. 2007). Accordingly, ‘ “[t]o survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim
[of standing] that is plausible on its face.’ ” Iqbal, 556
U.S. at 678 (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)). In this respect, “the plausibility
standard . . . asks for more than a sheer possibility
that a defendant has acted unlawfully.” Id.
The complaint alleges upon information and belief
that the U.S. government has designated Kareem as a
terrorist target approved for lethal force. We have

App. 13
recognized that “pleadings on information and belief
are permitted when ‘the necessary information lies
within defendants’ control.’ ” Kowal v. MCI Commc’ns
Corp., 16 F.3d 1271, 1279 n.3 (D.C. Cir. 1994) (quoting
In re Craftmatic Sec. Litig., 890 F.2d 628, 645 (3d Cir.
1989)). In such circumstances, however, we also require that the allegations based on information and belief “be accompanied by a statement of the facts upon
which the allegations are based.” Id.; see also Tooley v.
Napolitano, 586 F.3d 1006, 1007–1008, 1010 (D.C. Cir.
2009) (dismissing complaint where alleged facts did
not plausibly support inference that government had
surveilled plaintiff, despite plaintiff ’s allegation “on
information and belief ’ that at least nine telephones
connected to him had been illegally wiretapped). Accordingly, whether Kareem has alleged sufficient facts
to establish standing turns on whether the complaint’s
allegations create a plausible inference that the U.S.
government has designated Kareem as a terrorist target approved for lethal force.
Kareem argues that the complaint’s allegations
regarding his proximity to five missile strikes over a
three-month period in Syria in 2016 make it plausible
that the U.S. government has targeted him for lethal
force. The defendants, on the other hand, argue that
Kareem lacks standing because no facts plausibly establish (1) that the five missile strikes were attributable to the United States or (2) that the five missile
strikes specifically targeted Kareem. We agree with
the defendants. Kareem’s allegation that the United
States has targeted him for lethal action “stops short

App. 14
of the line between possibility and plausibility.”
Twombly, 550 U.S. at 557.
Kareem does not and could not plausibly dispute
the basic facts that, in the summer of 2016, the Syrian
civil war involved numerous factions, including proAssad government forces, anti-Assad opposition groups,
Kurdish factions, the Islamic State (ISIS) and alQaeda-linked fighters. See Cong. Rsch. Serv., RL33487,
Armed Conflict in Syria: Overview and U.S. Response
9–11 (June 20, 2017).7 In addition, foreign governments, including Russia, Iran, Turkey and the United

7

It is well-settled that we may consider materials outside
the pleadings to determine our jurisdiction. Haase v. Sessions,
835 F.2d 902, 908 (D.C. Cir. 1987) (court may “undertake an independent investigation to assure itself of its own subject matter
jurisdiction” in considering standing under Rule 12(b)(1)). In so
doing at the motion to dismiss stage, we “must still ‘accept all of
the factual allegations in [the] complaint as true.’ ” Jerome Stevens Pharm., Inc. v. FDA, 402 F.3d 1249, 1253–1254 (D.C. Cir.
2005) (alteration in original) (quoting United States v. Gaubert,
499 U.S. 315, 327 (1991)). We may also take judicial notice of “ ‘a
fact that is not subject to reasonable dispute’ if it either ‘is generally known within the trial court’s territorial jurisdiction’ or ‘can
be accurately and readily determined from sources whose accuracy cannot reasonably be questioned.’ ” Hurd v. District of Columbia, 864 F.3d 671, 686 (D.C. Cir. 2017) (quoting Fed. R. Evid.
201(b)). We take judicial notice of facts regarding the Syrian conflict that Kareem’s complaint does not dispute because they are
generally known and can be readily determined from reliable
sources, such as the Congressional Research Service and State
Department reports. See Williams v. Lew, 819 F.3d 466, 473 (D.C.
Cir. 2016) (taking judicial notice of agency report); Youkhana v.
Gonzales, 460 F.3d 927, 932 (7th Cir. 2006) (taking judicial notice
of State Department country report on Iraq).

App. 15
States, were providing direct military assistance to different factions at the time. Id. at 11.
Nor is there any dispute that Idlib City and
Aleppo, the areas where Kareem alleges the five airstrikes occurred, were major battlefields in the Syrian
conflict during the summer of 2016. Specifically, Idlib
City, the site of OGN’s office and of two of the alleged
airstrikes, was captured by anti-Assad forces with the
support of al-Qaeda-linked fighters in 2015. Id. Hostilities between the Syrian government and opposition
forces continued in the area throughout 2016.
Similarly, Aleppo, Syria’s then-most populous city,
was the center of intense battles throughout the summer of 2016. The Syrian government cut off access to
opposition-held eastern Aleppo in July 2016, only for
al-Qaeda linked fighters to retake territory in the
southwest of the city and create an access point to besieged eastern Aleppo in August 2016. See Carla E.
Humud et al., Cong. Rsch. Serv., RL33487, Armed
Conflict in Syria: Overview and U.S. Response 8 (Sept.
28, 2016). Then, in September 2016, “Syrian and Russian forces began an intense aerial bombardment of
opposition-held areas of eastern Aleppo.” Id. at 8–9.
Unquestionably, numerous actors were involved in
the Syrian conflict in the specific areas identified in
Kareem’s complaint during the specific time period the
alleged airstrikes occurred. And the complaint does
not contain any factual allegations that explicitly link
the United States to any of the five alleged airstrikes.
In attempting to link the United States to the five

App. 16
airstrikes, the complaint instead relies primarily on
the assertion that “[d]efendants have admitted that
the United States conducts lethal strikes targeted at
individuals, using remotely piloted aircraft, among
other weapons.” Compl. at ¶ 55. A general allegation
that the United States targets individuals using
drones is plainly insufficient to establish plausibly
that, in a war-torn area of Syria in the summer of 2016,
the United States was responsible for five airstrikes in
Kareem’s vicinity and that Kareem was the specific
target of those airstrikes.
As for specific allegations, the complaint’s description of the third airstrike comes the closest to alleging
U.S. involvement. It claims that an OGN vehicle “was
struck and destroyed by a drone-launched Hellfire missile.” Id. at ¶ 49. Although not alleged in the complaint,
Kareem’s appellate brief asserts that a Hellfire missile
is “the missile attached to most armed U.S. drones.” Appellant Br. 9. The defendants respond that the Hellfire
missile system “is employed by numerous U.S. allies.”
Appellees Br. 16. The parties provide no support for
their respective assertions.
Even assuming arguendo that the United States
was the only actor in Syria using Hellfire missiles in
2016, Kareem’s allegation nonetheless suffers from
two fatal flaws: (1) we cannot give the allegation material weight because Kareem has apparently retreated
from the assertion in this litigation and (2) it provides
no plausible inference that Kareem was the specific
target of the airstrike. First, the complaint alleges that
the third airstrike involved “a drone-launched Hellfire

App. 17
missile.” But Kareem’s appellate briefing undermines
that factual assertion. Kareem’s opening brief categorizes this airstrike as coming “in the form of what
appeared to be a Hellfire missile.” Appellant Br. 9 (emphasis added). And Kareem’s reply brief explains that
Kareem “believed [the third alleged airstrike] was a
Hellfire missile of the type used by the United States
because of its strength and the damage it caused.” Reply Br. 10. At oral argument, Kareem’s counsel conceded the impossibility of knowing “with any kind of
certainty . . . that it was a Hellfire missile” at this stage
of the litigation. Tr. of Oral Arg. at 5:1–4, Kareem v.
Haspel (No. 19-5328) (Nov. 16, 2020).8 Thus, the allegation that the third airstrike involved a Hellfire missile
is nothing more than a conclusory assertion made on
an equivocal factual basis and is therefore afforded little, if any, weight in the plausibility analysis. See Iqbal,
556 U.S. at 679 (“[A] court considering a motion to dismiss can choose to begin by identifying pleadings that,
because they are no more than conclusions, are not entitled to the assumption of truth.”).
Moreover, were we to construe Kareem’s conclusory Hellfire missile allegation as a factual inference
based on the damage from the blast, the further necessary inference that the missile was attributable to
the United States would still be unreasonable. The
United States was not the only actor using powerful
missiles in Syria in 2016. Indeed, Syrian and Russian
8

See also Reply Br. 10 (“It is unclear how any person could
positively identify who launched a missile while it is being fired
at him, or the type of missile launched.”).

App. 18
forces carried out “an intense aerial bombardment of
opposition-held areas of eastern Aleppo” in 2016. See
Carla E. Humud et al., Cong. Rsch. Serv., RL33487,
Armed Conflict in Syria: Overview and U.S. Response 8
(Sept. 28, 2016). Specifically, U.S. and European officials “accused Russia of using bunker-buster bombs
and incendiary munitions against civilians in Aleppo.”
Id. at 9 (footnote omitted). Bunker-buster bombs are
“munitions dropped from aircraft that are designed to
penetrate hardened targets or targets buried deep underground. Such munitions are usually characterized
by relatively large explosive charges, specially reinforced detonating mechanisms, an[d] precision guidance systems in order to maximize the probability of
destroying particularly difficult targets.” Id at 9 n.18.
Accordingly, the unsupported Hellfire missile allegation does not provide a plausible basis to infer that the
United States launched the missile described in the
third alleged airstrike.
Second, Kareem’s factual allegations are insufficient to establish a plausible inference that the “dronelaunched Hellfire missile” targeted him, even assuming
arguendo the United States launched the missile. As
noted, the area surrounding Aleppo, where the airstrike is alleged to have occurred, experienced intense
battles between the Syrian government (and its allies)
and opposition forces during the summer of 2016. The
complaint contains no allegation that the airstrike
that struck an OGN vehicle on June 26, 2016 was
the only missile to hit the area that day. And Kareem
was not the only person in the vicinity of the airstrike.

App. 19
OGN staff were present and the missile struck the
OGN vehicle, not the pickup truck in which Kareem
was sitting. Accordingly, the inference that the alleged
“drone-launched Hellfire missile” specifically targeted
Kareem is an unreasonable inference.
The other four alleged airstrikes suffer from the
same fatal defect—the absence of any plausible inference that they specifically targeted Kareem. They either targeted OGN’s office building or hit areas where
Kareem was accompanied by other people. See Compl.
at ¶ 47 (“strike hit the OGN building”); ¶ 48 (“Kareem
was with his cameraman. . . . [and] a local man who
owned a supermarket”); ¶ 50 (“OGN [office] was targeted”); ¶ 51 (“Kareem and three other people from
OGN were driving in Kareem’s car” when a blast occurred nearby). And there is no allegation that they
were the only people in the area when the airstrikes
occurred. Simply put, the necessary inference that at
least one of the alleged airstrikes was (1) attributable
to the United States and (2) specifically targeted
Kareem is implausible on the face of the complaint’s
allegations.
Moreover, Kareem’s factual allegations are “not
only compatible with, but indeed [are] more likely explained by” attacks carried out by pro-Syrian government actors. Iqbal, 556 U.S. at 680. First, Kareem is
part of a news organization dedicated to providing access to the views of anti-Syrian government rebels.
Second, two of the alleged airstrikes hit the news organization’s offices. And third, one of the airstrikes occurred in an area that had recently shifted from Syrian

App. 20
government control to rebel hands. In its Syria 2016
Human Rights Report, the United States Department
of State noted that the Syrian government has used
“indiscriminate and deadly force against civilians,” including through “air and ground-based military assaults.” U.S. Dep’t of State, Syria 2016 Human Rights
Report 2 (2017). And the United Nations Commission
of Inquiry on Syria has reported that the Syrian government “routinely targeted and killed both local and
foreign journalists.”9 Id. at 29. These facts do not eliminate the possibility that the five airstrikes alleged in
the complaint were attributable to the United States
and specifically targeted Kareem. But they do make
the necessary inferences implausible. To conclude
otherwise would indicate that any person who uses an
electronic device, is in the vicinity of multiple explosions in a war zone and has had some contact with
local militants can plausibly allege that the United
States has targeted him for lethal force. Article III of
the United States Constitution precludes such a result.
“No principle is more fundamental to the judiciary’s
proper role in our system of government than the constitutional limitation of federal-court jurisdiction to
actual cases or controversies.” Simon v. E. Ky. Welfare
Rts. Org., 426 U.S. 26, 37 (1976). Here, “[t]he complaint
. . . simply do[es] ‘not permit the court to infer more
than the mere possibility of misconduct,’ and this is
insufficient to show that” Kareem has the requisite
9

Specifically, according to the State Department, Reporters
Without Borders has estimated that 56 journalists were killed in
Syria between 2011 and September 2016, including seven during
2016. Id.

App. 21
standing. Atherton v. D.C. Office of Mayor, 567 F.3d 672,
688 (D.C. Cir. 2009) (quoting Iqbal, 556 U.S. at 679).
For the foregoing reasons, we vacate the district
court’s dismissal pursuant to the state secrets privilege and remand with instructions to dismiss the
complaint on the ground that Kareem lacks Article III
standing.
So ordered.

App. 22
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

No. 19-5328

September Term, 2020
FILED ON: JANUARY 15, 2021

BILAL ABDUL KAREEM,
APPELLANT
V.

GINA CHERI HASPEL, ET AL.,
APPELLEES
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Columbia
(No. 1:17-cv-00581)
-----------------------------------------------------------------------

Before: SRINIVASAN, Chief Judge, HENDERSON and
MILLETT, Circuit Judges.
JUDGMENT
This cause came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and was argued by counsel. On
consideration thereof, it is
ORDERED and ADJUDGED that the District
Court’s dismissal pursuant to the state secrets privilege be vacated; and the case be remanded to the District Court with instructions to dismiss the complaint
on the ground that Kareem lacks Article III standing,

App. 23
in accordance with the opinion of the court filed herein
this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk
Date: January 15, 2021
Opinion for the court filed by Circuit Judge Henderson.

App. 24
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
AHMAD MUAFFAQ ZAIDAN, )
)
et al.,
)
Plaintiffs,
)
v.
)
Civil Action
No.
17-581 (RMC)
)
DONALD J. TRUMP,
)
President of the
)
United States, et al.,
)
Defendants.
)
MEMORANDUM OPINION
(Filed Jun. 13, 2018)
Plaintiffs Ahmad Muaffaq Zaidan and Bilal Abdul
Kareem are journalists who specialize in reporting on
terrorism and conflict in the Middle East. Mr. Zaidan
learned his name was included on a list of suspected
terrorists and Mr. Kareem has been the victim or near
victim of at least five aerial bombings while in Syria.
Based on this information, the Plaintiffs believe their
names are on a list of individuals the United States
has determined are terrorists and may be killed (the
so-called Kill List). Plaintiffs sue President Donald J.
Trump, the Director of the Central Intelligence Agency
(CIA), the Secretary of the Department of Defense
(DOD), the Secretary of the Department of Homeland
Security (DHS), the Attorney General, and the Director of National Intelligence (DNI), all in their official
capacities, as well as the Department of Justice (DOJ),

App. 25
DOD, DHS, and CIA. Plaintiffs allege that these officials and agencies violated the Administrative Procedure Act (APA), 5 U.S.C. § 551, et seq., by putting
Plaintiffs’ names on the Kill List. Defendants move to
dismiss for lack of subject-matter jurisdiction, arguing
that Plaintiffs lack standing and raise a political question outside the jurisdiction of the courts. Defendants
also move to dismiss for failure to state a claim upon
which relief may be granted. The Court will grant the
Motion to Dismiss in part and deny it in part.
I.

BACKGROUND

The Court takes its facts from the Complaint
which the government, at this early stage of the litigation, has not controverted. Mr. Zaidan is a Syrian and
Pakistani citizen who has been employed as a journalist by Al Jazeera for over 20 years. Compl. [Dkt. 1] ¶ 3.
Mr. Kareem is an American citizen and freelance
journalist, reporting for BBC, Channel 4 in the United
Kingdom, CNN, Sky News, and Al Jazeera. Id. ¶ 4.
Both Mr. Zaidan and Mr. Kareem regularly investigate
and report on terrorism and its causes in the Middle
East. Id. ¶¶ 3-4.
As part of his reporting, Mr. Zaidan was one of only
two journalists who interviewed Osama bin Laden
prior to the attacks on September 11, 2001. Id. ¶ 3. Mr.
Zaidan was not involved in planning the 9/11 attack
or any other attack. Id. ¶¶ 20-21. He has no association with Al-Qaeda or the Taliban and poses no threat
to the United States or its citizens. Id. ¶¶ 22-23. Mr.

App. 26
Zaidan’s work does, however, require him to communicate frequently “with sources who have connections
[to] terrorists and their associates” and to travel in
countries where terrorists are active. Id. ¶ 26. In addition to bin Laden, Mr. Zaidan has interviewed other
terrorist leaders such as Baitullah Mehsud of the
Tehreek-e Taliban-e Pakistan (Taliban Movement of
Pakistan) and Abu Mohammad al-Jolani of the Al
Nusra Front. Id. ¶¶ 30-31. In 2015, Mr. Zaidan traveled
in Syria reporting on battles of the Free Syrian Army;
as a result, he says that he was listed on Syrian State
Television as a member of Al-Qaeda. Id. ¶ 32. Mr. Zaidan alleges on information and belief that his actions
as a journalist caused him to be listed in a U.S. intelligence document called SKYNET, which identified potential terrorists based on their metadata (electronic
patterns of communications, writings, social media
postings, and travel). Id. ¶ 33. He believes that because
he was identified by SKYNET as a potential terrorist,
he has also been included on the Kill List, allowing him
to be targeted and killed. Id. ¶ 35.
Similarly, Mr. Kareem has no association with AlQaeda or the Taliban, has never participated in the
planning of a terrorist attack, and has never aided any
organization or individual which engages in terrorism.
Id. ¶¶ 40-42. He is currently employed by On the
Ground Network (OGN) and tasked with investigative
journalistic coverage of the anti-Assad rebels in Syria.
Id. ¶ 45. This work involves interactions with “local
‘militants’ during interviews.” Id. In June 2016, Mr.
Kareem was at the location of four different aerial

App. 27
attacks. Id. ¶¶ 47-50. The first and fourth incidents involved strikes to the OGN office in Idlib City when Mr.
Kareem was inside the office. Id. ¶¶ 47, 50. The second
attack occurred in the town of Hariyataan while Mr.
Kareem was there conducting an interview. Id. ¶ 48.
The strike hit the exact location where Mr. Kareem
was setting up for the interview, but at the time of the
strike he had climbed a nearby hill to “view destroyed
homes a street away.” Id. The third attack occurred
when the vehicle in which Mr. Kareem and his staff
were traveling was “struck and destroyed by a dronelaunched Hellfire missile.” Id. ¶ 49. At the time of the
strike, Mr. Kareem was sitting in a different, nearby
vehicle which was “hurled into the air by the force of
the blast” and “flipped upside down.” Id. In August
2016, Mr. Kareem was again the victim of an attack
when he was at the Kulliyatul Midfa‘iyyah (Artillery
College) to film. Id. ¶ 51. He and his coworkers were in
his car “when there was a huge blast only yards away
from the car.” Id. The occupants survived, but all were
hit by shrapnel from the blast. Id. As a result of these
five near-miss experiences in a three-month period, Mr.
Kareem alleges upon information and belief that he
was the target and that his name is included on the
United States Kill List. Id. ¶ 52.
According to the Complaint, the United States has
publically disclosed that it “conducts lethal strikes targeted at individuals, using remotely piloted aircraft,
among other weapons, and that targets are selected . . .
as a result of a ‘process’ in which targets are nominated
by one or more defendants, and their inclusion on the

App. 28
Kill List is confirmed through a series of meetings and
discussions among defendants.” Id. ¶ 55. Then-President Barack H. Obama issued the Presidential Policy
Guidance on May 22, 2013, which delineated guidelines and provided for oversight and accountability
in the process of designating individuals for the Kill
List. Id. ¶ 57; see also Procedures for Approving Direct Action Against Terrorist Targets Located Outside the United States and Areas of Active Hostilities
(May 22, 2013), https://www.aclu.org/sites/default/files/
field_document/presidential_policy_guidance.pdf (Presidential Policy Guidance). On August 6, 2016, the Presidential Policy Guidance was made public. Id. ¶ 58. It
includes guidance on designating individuals based
only on metadata (or without knowing their identities),
as well as the “necessary preconditions for taking lethal action.” Id. ¶¶ 61, 63.
Plaintiffs allege that Defendants violated the APA
when Defendants added Plaintiffs’ names to the socalled Kill List because Plaintiffs do not meet the preconditions listed in the Presidential Policy Guidance.
Id. ¶ 64. Plaintiffs also challenge the lack of notice and
opportunity to refute their inclusion on the Kill List.
Id. ¶ 65. The Complaint advances six counts under the
APA:
Count One: Inclusion of Plaintiffs on the
Kill List was arbitrary, capricious and an
abuse of discretion.
Count Two: Inclusion of Plaintiffs on the
Kill List was not in accord with law because
it (1) “violates the prohibition on conspiring

App. 29
to or assassinating any person abroad contained in Executive Order 12,333”; (2) “violates
the prohibition against war crimes contained
in 18 U.S.C. § 2441 because it constitutes a
grave breach of common article 3 of the Geneva Conventions as specified in 18 U.S.C.
§ 2441(c)(3)”; (3) “violates Article 6 of the International Covenant on Civil and Political
Rights”; and (4) “violates 18 U.S.C. § 956(a)(1).”
Count Three: Inclusion of Plaintiffs on the
Kill List exceeded Defendants’ statutory authority “because it exceeds the authority given
to the Executive pursuant to the Authorization for the Use of Military Force.”
Count Four: Inclusion of Plaintiffs on the
Kill List violated due process because Plaintiffs were provided no notice and given no opportunity to challenge their inclusion.
Count Five: Inclusion of Plaintiffs on the
Kill List violated the First Amendment because it “has the effect of restricting and inhibiting their exercise of free speech and their
ability to function as journalists entitled to
freedom of the press.”
Count Six (only as to Mr. Kareem): Inclusion
of Plaintiff on the Kill List violated the Fourth
and Fifth Amendments because it constituted
an illegal seizure and “seeks to deprive [Mr.
Kareem] of life without due process of law.”
Id. ¶¶ 70, 72-76, 78, 82-83, 85, 90-91. In the present
posture of the case, the Court must accept all plausible

App. 30
factual allegations in the Complaint as true. See Barr
v. Clinton, 370 F.3d 1196, 1199 (D.C. Cir. 2004).
On June 5, 2017, Defendants moved to dismiss.
Mem. of P. & A. in Supp. of Defs.’ Mot. to Dismiss (Mot.)
[Dkt. 8-1]. Plaintiffs opposed. Pls.’ Mem. of Law in
Opp’n to Defs.’ Mot. to Dismiss (Opp’n) [Dkt. 10]. Defendants replied. Defs.’ Reply Mem. in Supp. of Their
Mot. to Dismiss (Reply) [Dkt. 11]. The Court heard oral
argument on May 1, 2018.
II.

LEGAL STANDARDS

A. Motion to Dismiss – Fed. R. Civ. P. 12(b)(1)
Federal Rule of Civil Procedure 12(b)(1) allows a
defendant to move to dismiss a complaint, or any portion thereof, for lack of subject-matter jurisdiction. Fed.
R. Civ. P. 12(b)(1). No action of the parties can confer
subject-matter jurisdiction on a federal court because
subject-matter jurisdiction is both a statutory requirement and an Article III requirement. Akinseye v. District of Columbia, 339 F.3d 970, 971 (D.C. Cir. 2003).
The party claiming subject-matter jurisdiction bears
the burden of demonstrating that such jurisdiction
exists. Khadr v. United States, 529 F.3d 1112, 1115
(D.C. Cir. 2008); see Kokkonen v. Guardian Life Ins. Co.
of Am., 511 U.S. 375, 377 (1994) (noting that federal
courts are courts of limited jurisdiction and “Mt is to
be presumed that a cause lies outside this limited jurisdiction, and the burden of establishing the contrary
rests upon the party asserting jurisdiction”).

App. 31
When reviewing a motion to dismiss for lack of jurisdiction under Rule 12(b)(1), a court must review the
complaint liberally, granting the plaintiff the benefit of
all inferences that can be derived from the facts alleged. Barr, 370 F.3d at 1199. Nevertheless, “the Court
need not accept factual inferences drawn by plaintiffs
if those inferences are not supported by facts alleged
in the complaint, nor must the Court accept plaintiffs’ legal conclusions.” Speelman v. United States, 461
F. Supp. 2d 71, 73 (D.D.C. 2006). A court may consider
materials outside the pleadings to determine its jurisdiction. Settles v. U.S. Parole Comm’n, 429 F.3d 1098,
1107 (D.C. Cir. 2005); Coal. for Underground Expansion v. Mineta, 333 F.3d 193, 198 (D.C. Cir. 2003). A
court has “broad discretion to consider relevant and
competent evidence” to resolve factual issues raised by
a Rule 12(b)(1) motion. Finca Santa Elena, Inc. v. U.S.
Army Corps of Eng’rs, 873 F. Supp. 2d 363, 368 (D.D.C.
2012) (citing 5B Charles Wright & Arthur Miller,
Fed. Prac. & Pro., Civil § 1350 (3d ed. 2004)); see also
Macharia v. United States, 238 F. Supp. 2d 13, 20
(D.D.C. 2002), aff ’d, 334 F.3d 61 (2003) (in reviewing a
factual challenge to the truthfulness of the allegations
in a complaint, a court may examine testimony and
affidavits). In such circumstances, consideration of
documents outside the pleadings does not convert the
motion to dismiss into one for summary judgment. AlOwhali v. Ashcroft, 279 F. Supp. 2d 13, 21 (D.D.C.
2003).

App. 32
B. Motion to Dismiss – Fed. R. Civ. P. 12(b)(6)
Federal Rule of Civil Procedure 12(b)(6) requires a
complaint to be sufficient “to give the defendant fair
notice of what the claim is and the grounds upon which
it rests.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007) (internal citations omitted). Although a complaint does not need to include detailed factual allegations, a plaintiff ’s obligation to provide the grounds of
his entitlement to relief “requires more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Id. The facts alleged
“must be enough to raise a right to relief above the
speculative level.” Id. A complaint must contain sufficient factual matter to state a claim for relief that is
“plausible on its face.” Id. at 570. When a plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged, then the claim has facial plausibility. See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
“The plausibility standard is not akin to a probability
requirement, but it asks for more than a sheer possibility that a defendant has acted unlawfully.” Id. A
court must treat the complaint’s factual allegations as
true, “even if doubtful in fact.” Twombly, 550 U.S. at
555. A court need not accept as true legal conclusions
set forth in a complaint. Iqbal, 556 U.S. at 678.
III.

ANALYSIS

Defendants provide three alternative arguments
to support their motion to dismiss. First, they argue

App. 33
the Court lacks subject-matter jurisdiction “because
Plaintiffs have not alleged sufficient facts to establish
that they have standing to bring their lawsuit.” Mot. at
1. Second, they argue that the Court lacks subjectmatter jurisdiction because Plaintiffs raise a political
question that would require the Court “to probe into
sensitive and complex national security decisions.” Id.
at 2. Finally, they move to dismiss under Rule 12(b)(6),
arguing that Plaintiffs have failed to state a claim
upon which relief may be granted because they “have
not pled sufficient facts to establish that the alleged
unlawful actions have even occurred.” Id. The Court
will address each argument in turn.
A. Subject-Matter Jurisdiction
1. Standing
Standing is part and parcel of Article III’s limitation on the judicial power of the federal courts, which
extends only to cases or controversies. U.S. Const. art.
III, § 2 (“The judicial Power shall extend to all Cases,
in Law and Equity, arising under this Constitution, the
Laws of the United States, and Treaties made, or which
shall be made, under their Authority [and] to Controversies. . . .”); see also Ariz. State Legislature v. Ariz.
Indep. Redistricting Comm’n, 135 S. Ct. 2652, 2663
(2015). The strictures of Article III standing are by now
“familiar.” United States v. Windsor, 133 S. Ct. 2675,
2685 (2013). Standing requires (1) the plaintiff to have
suffered an injury in fact that is both (a) concrete and
particularized and (b) actual or imminent, as opposed

App. 34
to conjectural or hypothetical; (2) the injury must be
traceable to the defendants’ actions; and (3) the injury
must be redressable by a favorable decision of the
court. See id. at 2685-86 (citing Lujan v. Defenders of
Wildlife, 504 U.S. 555, 559-62 (1992)).
A federal court must assure itself of both constitutional and statutory subject-matter jurisdiction. The
former obtains if the case is one “arising under this
Constitution, the Laws of the United States, and Treaties made, or which shall be made, under their Authority.” U.S. Const. art. III, § 2. The relevant statute, 28
U.S.C. § 1331, likewise confers jurisdiction upon lower
courts to hear “all civil actions arising under the Constitution, laws, or treaties of the United States.” Federal courts have constitutional and statutory “arising
under” jurisdiction whenever a plaintiffs claim “will be
sustained if the Constitution is given one construction
and will be defeated if it is given another.” Powell v.
McCormack, 395 U.S. 486, 514-16 (1969) (citing Bell v.
Hood, 327 U.S. 678, 685 (1946); King Cnty. v. Seattle
Sch. Dist. No. 1, 263 U.S. 361, 363-64 (1923)).
a. Injury-in-fact
A plaintiff must allege an injury-in-fact that is (a)
concrete and particularized and (b) actual or imminent, not conjectural or hypothetical. See Windsor,
133 S. Ct. at 2685 (citing Lujan, 504 U.S. at 559-62).
Allegations of speculative or possible future injury do
not satisfy the requirements of Article III. “A threatened injury must be certainly impending to constitute

App. 35
injury in fact.” Whitmore v. Arkansas, 495 U.S. 149, 158
(1990).
When an alleged injury has not yet occurred,
courts must determine whether it is imminent. Clapper v. Amnesty Int’l USA, 568 U.S. 398, 409 (2013). An
injury is imminent if the threatened injury is “certainly impending” or if there is substantial risk that
the harm will occur. Id. “[P]laintiffs bear the burden of
pleading . . . concrete facts showing that the defendant’s actual action has caused the substantial risk of
harm. Plaintiffs cannot rely on speculation about the
unfettered choices made by independent actors not before the court.” Id. at 414 n.5 (internal quotations and
citation omitted).
Defendants argue that both Plaintiffs fail to meet
the “injury-in-fact” prerequisite for standing because
none of the factual allegations demonstrates that they
have suffered harm or that there is a substantial risk
of future harm. Defendants contend that none of Plaintiffs’ allegations—the inclusion of Mr. Zaidan’s name
on SKYNET or Mr. Kareem’s repeated near-miss incidents—indicates that either Plaintiff is actually on the
Kill List, which Defendants appear to concede would
itself constitute harm or demonstrate a substantial
risk of future harm. See Mot. at 3-11.
i.

Mr. Zaidan lacks standing to sue.

Mr. Zaidan asserts, upon information and belief,
that his name is on the Kill List because of the nature
of his metadata, that is (1) as part of his job as a

App. 36
journalist he communicates frequently with individuals who have connections to terrorists, (2) his social
media accounts contain words and phrases associated
with terrorism, and (3) he has interviewed leaders of
al-Qaeda and the Taliban and other terrorist organizations, which caused him to be identified as a potential
target by SKYNET, an allegedly
classified U.S. intelligence document. Compl. ¶¶ 2634.
Defendants argue that Mr. Zaidan cannot rely on
a purportedly classified document (SKYNET), despite
its availability in the public domain on the Internet.
They cite Alfred A. Knopf Inc. v. Colby for this proposition. 509 F.2d 1362, 1370 (4th Cir. 1975), cert. denied,
421 U.S. 992 (1975). Defendants over-read Knopf a case
in which former government employees challenged deletions required by the CIA of information in their proposed book. See id. at 1365. Knopf evaluated the impact
of the then-newly adopted Freedom of Information Act
(FOIA), 5 U.S.C. § 552, on EPA v. Mink, 410 U.S. 73
(1972), which had held that “executive decisions respecting the classifying of information are not subject
to judicial review.” Knopf 509 F.2d at 1367. “The legislative history [of FOIA] makes it clear that the Congress intended to overthrow the result of Mink.” Id. In
that context, the Fourth Circuit reversed the District
Court for having imposed too high a burden on the government to prove the classified status of the deleted
materials. Id. at 1370. It then held that “individuals
bound by the secrecy agreements [as part of their government employment] may not disclose information,

App. 37
still classified, learned by them during their employments regardless of what they may learn or might
learn thereafter.” Id. at 1371. Knopf further held that
such secrecy obligations continue as to classified information even if revealed by a non-official source after
the person’s government employment has ended. Id.
Defendants do not suggest that Mr. Zaidan learned
of SKYNET as part of employment with the United
States government or that he is, therefore, prohibited
from disclosing any information concerning it. To the
contrary, Mr. Zaidan alleges that some information
from SKYNET was publicized by unknown persons on
the Internet and it included his name as prime among
persons whose metadata caused them to be suspected
of terrorist activities. That information, whether or
not classified, may be cited by Plaintiffs although its
weight may be subject to attack.
The Complaint alleges that “Defendants’ false
classification of plaintiff Zaidan as a terrorist, based on
SKYNET’s metadata analysis, has prompted defendants to place him on their Kill List and target him to
be killed.” Compl. ¶ 35. Defendants insist that even if
Mr. Zaidan’s name is on a SKYNET list of “potential
terrorists,” he has failed to allege adequately a link between SKYNET and the Kill List. This point is well
taken. When reviewing a motion to dismiss, a court
must assume that all plausible factual allegations are
true; nonetheless, the alleged injury cannot be “conjectural or hypothetical.” Lujan, 504 U.S. at 560; see also
Twombly, 550 U.S. at 555 (“Factual allegations must be
enough to raise a right to relief above the speculative

App. 38
level.”). Therefore, the Court assumes the accuracy of
Mr. Zaidan’s allegations that he is a journalist who regularly meets with individuals tied to terrorists, that he
has interviewed terrorist leaders, and that he found
his name on a SKYNET list of potential terrorists.
These facts, however, are not sufficient to allege plausibly that his name is on a U.S. Kill List; that conclusion is mere speculation presented as a fact. As did the
plaintiffs in Clapper v. Amnesty International USA, Mr.
Zaidan presents a list of factual allegations that is too
attenuated from the final necessary allegation. 568
U.S. at 410-11. In other words, while Mr. Zaidan would
not need to plead with certainty or have actual proof
that his name is on a Kill List, his current allegations
would require the Court to find that it is plausible that
every individual whose name is on the SKYNET list of
potential terrorists is also on a Kill List, for which
there is no evidence of fact or logic. To the contrary, Mr.
Zaidan does not allege that a single individual on the
SKYNET list has been the subject of a United States
drone strike or targeted for lethal action. While it is
possible that there is a correlation between a list like
SKYNET and the Kill List, the Court finds no allegations in the Complaint that raise that possibility above
mere speculation. Accordingly, the Court finds Mr. Zaidan has failed to allege a plausible injury-in-fact and
therefore has no standing to sue.1 Because the Court
1

The Opposition argues that a “disposition matrix” reported
by the Washington Post indicates that an individual’s inclusion
on the SKYNET list could lead to results other than death, such
as capture and interrogation or rendition. Opp’n at 11 n.4. The
news article constitutes inadmissible hearsay and cannot be

App. 39
concludes that Mr. Zaidan has no standing to pursue
his lawsuit, the remaining arguments will be analyzed
only as they pertain to Mr. Kareem.
ii. Mr. Kareem has demonstrated
standing.
Mr. Kareem alleges that he is on the Kill List because he was the victim of five near-miss attacks
within a three-month period in 2016. Two of the attacks involved his place of work, one involved his own
vehicle, one involved a work vehicle in which he had
been traveling immediately before, and one hit a location from which he had just walked away. See Compl.
¶¶ 46-51. Defendants argue that Mr. Kareem was on
“battlefields in Syria” and that he merely alleges “he
has sustained or narrowly escaped war-related injuries.” Mot. at 8. Even assuming the facts of the attacks
are true, Defendants argue that Mr. Kareem has provided no reason to believe they are “attributable to
anything more than a journalist reporting from a dangerous and active battlefield.” Id. Defendants ask the
Court to consider independent sources which conclude
that Syria is a volatile place where forces from multiple countries and groups engage in hostilities and attacks, making implausible Mr. Kareem’s allegations

relied upon in analyzing Mr. Zaidan’s injury. The Complaint does
not allege or challenge Mr. Zaidan’s inclusion on a list of potential
terrorists that the United States seeks to capture but only inclusion on the Kill List.

App. 40
that the attacks he suffered were at the hands of the
United States and not other combatants.
Mr. Kareem alleges that the United States engages in targeted drone strikes,2 that he has been the
near victim of a military strike on five occasions (at
least one of which included the use of a drone), and
that he is a journalist who is often in contact with rebel
or terrorist organizations. Compl. ¶¶ 44-52, 55-59. Accepting all well-pled allegations as true, Mr. Kareem
has plausibly alleged that he was in 2016 a target on
the Kill List with evidence that makes it “more than a
sheer possibility.” Iqbal, 556 U.S. at 678. Although Defendants set forth other plausible alternatives, such as
the fact that Mr. Kareem could have been targeted by
Syria for reporting on anti-Assad efforts, their argument does not make it implausible that the attacks
were a result of U.S. action; at oral argument, Defendants conceded that Mr. Kareem specifies that at least
one of the strikes was from a Hellfire missile of the
kind used by the U.S. without identifying the other
weapons to the contrary. The Court concludes that Mr.
Kareem has adequately pled injury-in-fact.3

2

See, e.g., Al-Aulaqi v. Panetta, 35 F. Supp. 3d 56 (D.D.C.
2014); Al-Aulaqi v. Obama, 727 F. Supp. 2d 1 (D.D.C. 2010).
3
Since the Complaint alleges that Mr. Kareem was on the
U.S. Kill List in 2016 but was not killed, it posits that his danger
continues to the present time. Having filed a motion to dismiss
based solely on legal arguments, the government makes no factual argument to the contrary.

App. 41
b. Causation
Causation is the second element of standing and
is just as critical as injury-in-fact. Causation requires
“a causal connection between the injury and the conduct complained of ” Lujan, 504 U.S. at 560. The harm
alleged must be “fairly traceable to the challenged
action of the defendant, and not the result of the independent action of some third party not before the
court.” Bennett v. Spear, 520 U.S. 154, 167 (1997).
Defendants do not directly rebut Mr. Kareem’s allegations of causation, but do argue that “the more
plausible explanation” for Mr. Kareem’s narrow escapes from injury in five different strikes “is that he
has chosen to work as a journalist in a country rife
with violence and warfare.” Reply at 8. Twombly and
Iqbal do not, however, require a plaintiff to allege the
most plausible set of facts, but merely a plausible set
of facts. See Twombly, 550 U.S. at 556 (“Asking for
plausible grounds to infer an agreement does not impose a probability requirement at the pleading stage;
it simply calls for enough fact to raise a reasonable expectation that discovery will reveal evidence of illegal
agreement.”). While it is plausible that Mr. Kareem is
not being targeted by the United States, it is also plausible that Mr. Kareem’s multiple near-miss incidents
were caused by Defendants’ decision to include him on
the Kill List and were, therefore, caused by Defendants’ actions. Probability is not the standard on a motion to dismiss.

App. 42
c.

Redressability

The last element of standing is redressability, requiring that it “be likely, as opposed to merely speculative, that the injury will be redressed by a favorable
decision.” Lujan, 504 U.S. at 561 (internal quotations
and citation omitted); see also In re Sci. Applications
Int’l Corp. (SAIC) Backup Take Data Theft Litig., 45
F. Supp. 3d 14, 33 (D.D.C. 2014). Defendants make no
arguments regarding redressability and thus the matter is conceded. The Court finds that if Mr. Kareem succeeds in this case his injury can be redressed through
an injunction or order from this Court requiring, at the
least, that the United States review and consider his
evidence before it directs lethal force against him.
2. Sovereign Immunity
There must be a valid waiver of the United States’
sovereign immunity for Mr. Kareem to bring claims
against an agency of the United States through its officials, as he does here. See, e.g., Block v. North Dakota,
461 U.S. 273, 287 (1983) (“The basic rule of federal sovereign immunity is that the United States cannot be
sued at all without the consent of Congress.”). Naming
the heads of agencies as defendants in their official capacities results in a lawsuit against the United States.
See Kentucky v. Graham, 473 U.S. 159, 165-66 (1985)
(“Official-capacity suits, in contrast, ‘generally represent only another way of pleading an action against an
entity of which an officer is an agent.’ ” (quoting Monell
v. New York City Dep’t of Social Servs., 436 U.S. 658,

App. 43
690 n.55 (1978))). The principles of sovereign immunity apply equally to federal agencies, officers, and employees acting in their official capacities. See FDIC v.
Meyer, 510 U.S. 471, 475 (1994) (“Absent a waiver, sovereign immunity shields the Federal Government and
its agencies from suit”); Kentucky v. Graham, 473 U.S.
159, 165-66 (1985). The United States’ exemption from
suit is expressed in jurisdictional terms—that is, federal courts lack subject-matter jurisdiction over suits
against the United States in the absence of a clear
waiver of sovereign immunity. See, e.g., Jackson v.
Bush, 448 F. Supp. 2d 198, 200 (D.D.C. 2006) (“[A]
plaintiff must overcome the defense of sovereign immunity in order to establish the jurisdiction necessary
to survive a Rule 12(b)(1) motion to dismiss.”). Statutes
that waive sovereign immunity are strictly construed
and any doubt or ambiguity is resolved in favor of immunity. Lane v. Pena, 518 U.S. 187, 192 (1996).
The Complaint advances multiple claims by Mr.
Kareem based on the APA. That statute waives the
government’s sovereign immunity from suit for individuals “suffering legal wrong because of agency action, or adversely affected or aggrieved by agency
action within the meaning of a relevant statute.” 5
U.S.C. § 702 (“The United States may be named as a
defendant in any such action, and a judgment or decree may be entered against the United States.”).
APA review is precluded if an applicable statute bars
judicial review, if the “agency action is committed
to agency discretion by law,” or if the entity sued

App. 44
is exempt from the APA’s definition of agency in
§ 701(b)(1). Id. § 701(a), (b)(1).
To begin, the Court will dismiss all claims against
President Trump because the President is not an
agency within the meaning of the APA. See Dalton v.
Specter, 511 U.S. 462, 467-68 (1994) (“[T]he APA does
not apply to the President”); Franklin v. Massachusetts,
505 U.S. 788, 796-801 (1992).
Defendants argue that all of Mr. Kareem’s claims
must be dismissed because “military authority exercised in the field in time of war or in occupied territory”
is exempt from the definition of agency action in the
APA. 5 U.S.C. § 701(b)(1)(G). These arguments may
prove applicable, but Defendants fail to demonstrate
at this point that the challenged action took place “in
the field in time of war.”
The action at issue is the alleged decision of the
United States to place Mr. Kareem on the Kill List. The
Complaint alleges that this decision was made in the
manner dictated by the Presidential Policy Guidance,
whereby it was discussed, debated, and decided in
Washington, D.C. Thus, while execution of such a decision would be an exercise of military authority in the
field, the Complaint plausibly argues that the decision
itself was made by authorities who were not “in the
field” as required for the APA exemption to apply.
Further, Defendants fail to identify the war in
which the United States is or was engaged and relegate the argument to a single sentence in a footnote. Somewhat contrary to this semi-argument,

App. 45
Defendants also repeatedly argue in brief and at oral
argument that the conflict in Syria is an internal civil
war among Syrians, in which the United States merely
provides military assistance. See Mot. at 9. From the
former perspective, Defendants insist that the APA
does not apply due to this “time of war,” while from the
latter, Defendants assert that the United States has
such a limited military presence in Syria it is not plausible the attacks against Mr. Kareem were the result
of U.S. action. Of course, a non-traditional war can be
a “time of war” exempt from APA coverage, but Defendants fail to identify the war at issue. See Anderson v.
Carter, 802 F.3d 4, 8-9 (D.C. Cir. 2015) (finding that
“hostilities may subsist between two nations on a limited basis, which would [once] be properly termed [an]
imperfect war” and is now called an “undeclared war”);
Doe v. Rumsfeld, 297 F. Supp. 2d 119, 129 (D.D.C. 2003)
(finding judicial review permissible of order that military submit to anthrax vaccine because, in part, “the
order . . . was given by the Secretary of Defense, not by
commanders in the field”); Jaffee v. United States, 592
F.2d 712, 719-20 (3d Cir. 1979) (questioning whether
actions taken in the United States during the Korean
War could be considered “in the field”); Rosner v. United
States, 231 F. Supp. 2d 1202, 1217-18 (S.D. Fla. 2002)
(allowing discovery on whether APA’s exception of
“military authority” from court review applied to the
Army’s seizure of property expropriated by the Hungarian government during World War II). The Court
does not close its eyes to the fact that the U S military
is engaged in warfare in Syria and elsewhere, but Defendants fail to use such terms. This may seem like a

App. 46
foolish requirement under the circumstances, but it
pertains by statute nonetheless.
The undeveloped facts and legal arguments presented by Defendants are insufficient to prompt dismissal of Mr. Kareem’s Complaint. Defendants do not
disavow the Presidential Policy Guidance or its applicability to any decision in 2016 or earlier to put Mr.
Kareem’s name on the Kill List, as he alleges. The
Presidential Policy Guidance supports his argument
that the relevant decisions are made far from the field
of battle. Mr. Kareem complains of an alleged decision
to authorize a lethal strike against him and not a
decision in the field to attempt to carry out that authorization. He wants the opportunity to persuade his
government that he is not a terrorist or a threat so that
the alleged authorization to kill is rescinded. This legal
approach to resolving the issue has previously been
recommended by this District Court and sustained
on appeal. See El-Shifa Pharm. Indus. Co. v. United
States, 607 F.3d 836, 842 (D.C. Cir. 2010) (en banc); bin
Ali Jaber v. United States, 861 F.3d 241, 246 (D.C. Cir.
2017).
3. Political Question
Finally, Defendants urge the Court to find that
there is no judicial role here because Mr. Kareem’s
Complaint raises a political question for which the Judiciary is ill-equipped to rule. “The political question
doctrine excludes from judicial review those controversies which revolve around policy choices and value

App. 47
determinations constitutionally committed for resolution to the halls of Congress or the confines of the Executive Branch.” Japan Whaling Ass’n v. Am. Cetacean
Soc’y, 478 U.S. 221, 230 (1986). The doctrine is “primarily a function of the separation of powers.” Baker v.
Carr, 369 U.S. 186, 210 (1962).
However, “[i]t is emphatically the province and
duty of the judicial department to say what the law is,”
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803),
and the political question doctrine’s “shifting contours
and uncertain underpinnings” make it “susceptible to
indiscriminate and overbroad application to claims
properly before the federal courts,” Ramirez de Arellano v. Weinberger, 745 F.2d 1500, 1514 (D.C. Cir. 1984)
(en banc), vacated on other grounds, 471 U.S. 1113
(1985). “The political question doctrine has occupied a
more limited place in the Supreme Court’s jurisprudence than is sometimes assumed. The Court has
relied on the doctrine only twice in the last 50 years.”
El-Shifa, 607 F.3d at 856 (Kavanaugh, J., concurring in
judgment).
When evaluating whether an issue involves a political question, courts consider a number of factors;
the presence of one such factor is sufficient to find a
political question. Schneider v. Kissinger, 412 F.3d 190,
194 (D.C. Cir. 2005). A court considers whether the case
presents:
[1] a textually demonstrable constitutional
commitment of the issue to a coordinate political department; or [2] a lack of judicially

App. 48
discoverable and manageable standards for
resolving it; or [3] the impossibility of deciding
without an initial policy determination of a
kind clearly for nonjudicial discretion; or [4]
the impossibility of a court’s undertaking independent resolution without expressing lack
of respect due coordinate branches of government; or [5] an unusual need for unquestioning adherence to a political decision already
made; or [6] the potentiality of embarrassment of multifarious pronouncements by various departments on one question.
Baker, 369 U.S. at 217. The government focuses on the
first two Baker factors and argues that the decision of
whether to target an individual for lethal action is a
wartime decision that is committed to the executive
with no judicially manageable standard for review. Mr.
Kareem argues that this case is most similar to People’s Mojahedin Organization v. Department of State,
182 F.3d 17 (D.C. Cir. 1999), which concerned a challenge to the State Department’s identification of the
People’s Mojahedin Organization as a terrorist organization. The D.C. Circuit found that the question was
subject to judicial review because the Antiterrorism
and Effective Death Penalty Act of 1996 (AEDPA), 8
U.S.C. § 1189, specified the standards to apply. Id. at
113. Mr. Kareem urges the Court to find that it can
evaluate the decision to include Mr. Kareem on the Kill
List just as courts evaluate a decision to label an organization as a terrorist organization under AEDPA.
Judges on this Court have struggled before with
these issues in analogous contexts. Judge John Bates

App. 49
decided that Nasser al-Aulaqi, father of terrorist
Anwar al-Aulaqi, did not have standing to sue the
United States to prevent it from targeting his son with
a drone strike. Al-Aulaqi v. Obama, 727 F. Supp. 2d 1
(D.D.C. 2010) (al-Aulaqi I). In discussing the difficulty
of the issues, Judge Bates asked: “How is it that judicial approval is required when the United States decides to target a U.S. citizen overseas for electronic
surveillance, but that, according to defendants, judicial
scrutiny is prohibited when the United States decides
to target a U.S. citizen overseas for death?” Id. at 8.
Nonetheless, he agreed that “[t]he difficulty that U.S.
courts would encounter if they were tasked with ‘ascertaining the “facts” of military decisions exercised thousands of miles from the forum, lies at the heart of the
determination whether the question posed is a “political” one.’ ” Id. at 45 (quoting DaCosta v. Laird, 471 F.2d
1146, 1148 (2d Cir. 1973)). Judge Bates then concluded,
with some discomfiture, “that there are circumstances
in which the Executive’s unilateral decision to kill a
U.S. citizen overseas” is “judicially unreviewable.” Id.
at 51. Finding such a circumstance presented in that
case, Judge Bates dismissed Nasser al-Aulaqi’s suit.
After “the United States intentionally targeted
and killed [Anwar al-Aulaqi] with a drone strike in
Yemen on September 30, 2011,” “[b]ecause [he] was a
terrorist leader of al Qa’ida in the Arabian Peninsula,”
Nasser al-Aulaqi sued various U.S. persons, under a
Bivens theory of liability, in a separate case before this
Judge. Al-Aulaqi v. Panetta, 35 F. Supp. 3d 56, 58 (D.D.C.
2014) (al-Aulaqi II); see also Bivens v. Six Unknown

App. 50
Named Agents of Fed. Bureau of Narcotics, 403 U.S.
388, 389 (1971). “It was al-Aulaqi’s actions—and, in
particular, his direct personal involvement in the continued planning and execution of terrorist attacks
against the U.S. homeland—that led the United States
to take action.” Al-Aulaqi II, 35 F. Supp. 3d at 64 (citing
a letter from then-Attorney General Holder) (internal
citation omitted). The question presented was whether
“federal officials can be held personally liable for their
roles in drone strikes abroad that target and kill U.S.
citizens. The question raise[d] fundamental issues regarding constitutional principles.” Id. at 58. The Court
in al-Aulaqi II found Nasser alAulaqi’s second case to
be justiciable “[b]ecause Plaintiffs . . . pointedly allege[d] that Defendants, U.S. officials, intentionally
targeted and killed U.S. citizens abroad without due
process. . . .” Id. at 70. Al-Aulaqi II was ultimately
dismissed after the undersigned declined to extend
Bivens into new territory.
Neither of the al-Aulaqi cases bears directly on the
instant Complaint. Judge Bates read the complaint in
al-Aulaqi I as asking him to determine the facts and
judge the legitimacy of military decisions made thousands of miles away, which is not the case here. AlAulaqi II is similarly distinguishable because Nasser
al-Aulaqi attempted to extend Bivens allowing challenges to federal actors on constitutional grounds—beyond its grasp. It remains a truism that judges are not
good judges of military decisions during war. The immediate Complaint asks for no such non judicial feat;
rather, it alleges that placement on the Kill List occurs

App. 51
only after nomination by a defense agency principal
and agreement by other such principals, with prior notice to the President. The persons alleged to have exercised this authority are alleged to have followed a
known procedure that occurred in Washington or its
environs.
With this combination of precedents in mind, the
Court will evaluate each Count to determine if it presents a political question that is not for judicial review.
a. Count One – Agency action was arbitrary and capricious, and an abuse of
discretion
Count One asks the Court to examine whether the
defense agencies allegedly involved in the decision to
place Mr. Kareem on the Kill List complied with the
process set out in Section Three of the Presidential Policy Guidance: the “policy standard and procedure for
designating identified HVTs [high value targets] for lethal action.” Presidential Policy Guidance at 11. The
Court finds that the Presidential Policy Guidance fails
to provide a judicially manageable standard.
AEDPA, on which People’s Mojahedin rested, requires a series of formal findings that an organization
meets certain criteria before it can be labeled an international terrorist organization: “(A) the organization is
a foreign organization”; “(B) the organization engages
in terrorist activity” as defined in AEDPA; and “(C) the
terrorist activity of the organization threatens the
security of United States nationals or the national

App. 52
security of the United States.” 8 U.S.C. § 1189(a)(1). In
direct contrast, the Presidential Policy Guidance provides no test or standard that must be satisfied before
the government may add an individual (known or unknown) to the Kill List; it only specifies the steps and
processes that the relevant defense agencies must
complete. See Presidential Policy Guidance at 11-14.
When an individual who is not a U.S. person is proposed for lethal action, and the principals of the relevant defense agencies unanimously decide that lethal
action should be taken, the principal of the nominating
agency may approve lethal action after prior notice to
the President. Id. at 14 § 3.E.1. When a known U.S. person is proposed for lethal action, such as a U.S. citizen
overseas, the defense agencies make a recommendation but it is the President who ultimately decides
whether to target that U.S. person for lethal action. See
id. at 14 § 3.E. In neither decision-making process is
the decision-maker required to make preliminary findings or follow a specific process.
The analogy between AEDPA and the Presidential
Policy Guidance is too imperfect for case law on the former to support a conclusion here that the Presidential
Policy Guidance provides requisite standards for judicial review. As an emphasis to this conclusion, the
Presidential Policy Guidance itself states that it “is not
intended to, and does not, create any right or benefit,
substantive or procedural, enforceable at law or in
equity by any party against the United States, its departments, agencies, or entities, its officers, employees,
or agents, or any other person.” Presidential Policy

App. 53
Guidance at 18 § 8.A. AEDPA, however, specifically
provides a reviewable right to challenge an organization’s designation as a terrorist organization. See 8
U.S.C. § 1189(c)(1) (“Not later than 30 days after publication in the Federal Register of a designation, an
amended designation, or a determination in response
to a petition for revocation, the designated organization may seek judicial review in the United States
Court of Appeals for the District of Columbia Circuit.”).
Whether Defendants complied with the Presidential Policy Guidance is a political question the Court
must refrain from addressing. Count One will be dismissed.
b. Counts Two and Three – Agency action was not in accord with law or
statutory authority
Counts Two and Three challenge the legal authority upon which the Defendants based their decision to
add Mr. Kareem to the Kill List. Mr. Kareem argues
such a decision was not in accord with law and was in
excess of statutory authority because it: (1) “violate[d]
the prohibition on conspiring to or assassinating any
person abroad contained in Executive Order 12,333”;
(2) “violate[d] the prohibition against war crimes contained in 18 U.S.C. § 2441”; (3) “violate[d] Article 6
of the International Covenant on Civil and Political
Rights”; (4) “violate[d] 18 U.S.C. § 956(a)(1), which
prohibits conspiracy to commit murder or maiming
outside the United States”; and (5) “exceed[ed] the

App. 54
authority given to the Executive pursuant to the Authorization for the Use of Military Force.”4 Compl.
¶¶ 73-76, 78.
This Court follows the functional approach to the
political question doctrine adopted by the D.C. Circuit
in El-Shifa Pharmaceutical Industries v. United States
and applied in Bin Ali Jaber v. United States. The Circuit distinguishes between “claims requiring [courts]
to decide whether taking military action was wise—a
policy choice and value determination constitutionally
committed for resolution to the halls of Congress or the
confines of the Executive Branch” and “claims presenting purely legal issues such as whether the government had legal authority to act.” El-Shifa, 607 F.3d at
842; see also Jaber, 861 F.3d at 246. As discussed above,
Mr. Kareem’s first claim would require the Court to
delve into the propriety or merit of the decision to place
Mr. Kareem on the Kill List, which is beyond the
Court’s authority. Counts Two and Three, on the other
hand, appear at first blush to present “pure[ ] legal issues,” namely whether Defendants violated a pertinent
legal authority when they placed Mr. Kareem on the
Kill List. However, the process of determining whether
Defendants exceeded their authority or violated any
of the statutes referenced in the Complaint would
4

The Authorization for Use of Military Force (AUMF), Pub.
L. No. 107-40, 115 Stat. 224 (2001), authorized the President to
“use all necessary and appropriate force against those nations,
organizations, or persons [that] he determines planned, authorized, committed, or aided the terrorist attacks” of September 11,
2001. Hamdi v. Rumsfeld, 542 U.S. 507, 510 (2004) (quoting 115
Stat. 224, § 2(a)).

App. 55
require the Court to make a finding on the propriety of
the alleged action, which is prohibited by the political
question doctrine. Therefore, the Court finds Counts
Two and Three raise a nonjusticiable political question
and must be dismissed.
c.

Counts Four, Five, and Six – Defendants denied Mr. Kareem his rights to
due process and the opportunity to be
heard and deprived him of his First,
Fourth, and Fifth Amendment rights

Counts Four, Five, and Six ask the Court to find
that Mr. Kareem was deprived of his constitutional
rights when Defendants designated him for the Kill
List and denied him of a prior opportunity to be heard.
See Compl. ¶¶ 81-93. “[T]he Supreme Court has repeatedly found that claims based on [due process]
rights are justiciable, even if they implicate foreign
policy decisions.” Comm. of U.S. Citizens Living in Nicaragua v. Reagan, 859 F.2d 929, 935 (D.C. Cir. 1988)
(citing Regan v. Wald, 468 U.S. 222 (1984); Dames &
Moore v. Regan, 453 U.S. 654 (1981)); see also Boumediene v. Bush, 553 U.S. 723, 742 (2008) (“The Framers’
inherent distrust of governmental power was the driving force behind the constitutional plan that allocated
powers among three independent branches. This design serves not only to make Government accountable
but also to secure individual liberty.”); Hamdi, 542 U.S.
at 536-37 (emphasizing, with respect to challenges to
the factual basis of a citizen’s detention, that “it would
turn our system of checks and balances on its head to

App. 56
suggest that a citizen could not make his way to court
with a challenge to . . . his detention by his Government, simply because the Executive opposes making
available such a challenge”); id. at 536 (“Whatever
power the United States Constitution envisions for the
Executive . . . in times of conflict, it most assuredly envisions a role for all three branches when individual
liberties are at stake.”); Califano v. Sanders, 430 U.S.
99, 109 (1977) (recognizing “the well-established principle that when constitutional questions are in issue,
the availability of judicial review is presumed”); Vance
v. Rumsfeld, 653 F.3d 591, 618-19 (7th Cir. 2011), rev’d
en banc on other grounds, 701 F.3d 193 (“Courts reviewing claims of torture in violation of statutes such
as the Detainee Treatment Act or in violation of the
Fifth Amendment do not endanger the separation of
powers, but instead reinforce the complementary roles
played by the three branches of our government.”).
Due process is not merely an old and dusty procedural obligation required by Robert’s Rules.5 Instead,
it is a living, breathing concept that protects U.S. persons from overreaching government action even, perhaps, on an occasion of war. In Committee of U.S.
Citizens Living in Nicaragua v. Reagan, a group of U.S.
citizens living in Nicaragua advanced Fifth Amendment claims challenging U.S. support of military actions by the so-called “Contras.” 859 F.2d at 935. They
argued that U.S. funding to the Contras deprived the
plaintiffs of liberty and property without due process
5

Robert’s Rules of Order is a commonly used manual of parliamentary or organizational procedure in the United States.

App. 57
of law because the plaintiffs were physically threatened by the war in Nicaragua and were the intended
targets of the Contras. Id. On appeal, the D.C. Circuit
decided that the plaintiffs’ due process claims were “serious allegations and not ones to be dismissed as nonjusticiable” because “the Executive’s power to conduct
foreign relations free from the unwarranted supervision of the Judiciary cannot give the Executive carte
blanche to trample the most fundamental liberty and
property rights of this country’s citizenry.” Id. (quoting
Ramirez de Arellano, 745 F.2d at 1515).6
“[D]ue process is flexible and calls for such procedural protections as the particular situation demands.”
Morrissey v. Brewer, 408 U.S. 471, 481 (1972). It requires that a plaintiff show a protected interest in life,
liberty, or property, see Town of Castle Rock v. Gonzales,
545 U.S. 748, 756 (2005), and that government officials
knowingly deprived him of that interest, Daniels v.
Williams, 474 U.S. 327, 335-36 (1986), without notice
and an opportunity to be heard “at a meaningful time
and in a meaningful manner.” Mathews v. Eldridge,
424 U.S. 319, 333 (1976). Mr. Kareem alleges that the
Defendants targeted him for lethal force by putting his
name on the Kill List, which he deduces from five near
misses by drones or other military strikes. As a U.S.
citizen, he seeks to clarify his status and profession to
6

U.S. Citizens v. Reagan found the plaintiffs’ Fifth Amendment claims justiciable, but ultimately declined to hear them
because the plaintiffs did not allege that the United States participated in or encouraged injuries to Americans in Nicaragua.
See 859 F.2d at 934-35.

App. 58
Defendants and, thereby, assert his right to due process and a prior opportunity to be heard. His interest
in avoiding the erroneous deprivation of his life is
uniquely compelling See Ake v. Oklahoma, 470 U.S. 68,
78 (1985) (“The private interest in the accuracy of a
criminal proceedings that places an individual’s life or
liberty at risk is almost uniquely compelling.”); Lockett
v. Ohio, 438 U.S. 586, 604 (1978) (“[T]his qualitative
difference between death and other penalties calls for
a greater degree of reliability when the death sentence
is imposed.”).
Defendants rely on the analysis in El-Shifa to contend that this case is non-justiciable. See 607 F.3d 836.
The El-Shifa plaintiffs were owners of a Sudanese
pharmaceutical plant who sued the United States after their plant was destroyed by a missile strike. U.S.
officials asserted that the plant had been producing
chemical weapons for Osama bin Laden. Id. at 838-39.
The plaintiffs sought compensation for the plant’s destruction and the retraction of allegedly defamatory
statements connecting them to al-Qaeda. Id. at 839.
The Circuit dismissed their suit as barred by the political question doctrine. Id. at 840-44. El-Shifa is distinguishable from this case in key respects—the El-Shifa
plaintiffs were not U.S. persons and there was no allegation that they had a substantial connection to the
United States that might have given rise to cognizable
constitutional rights. See United States v. VerdugoUrquidez, 494 U.S. 259, 271 (1990) (“[A]liens receive
constitutional protections when they have come within the territory of the United States and developed

App. 59
substantial connections with this country.”); 32 Cnty.
Sovereignty Comm. v. Dep’t of State, 292 F.3d 797, 799
(D.C. Cir. 2002) (holding that a foreign plaintiff was
not entitled to due process regarding the State Department’s designation of it as a foreign terrorist organization because plaintiff did not have a controlling
interest in property in the United States and did not
show any other substantial connection). Importantly,
unlike the plaintiffs in El-Shifa and Jaber, Mr. Kareem
does not seek a ruling that a strike by the U.S. military
was mistaken or improper. He seeks his birthright instead: a timely assertion of his due process rights under the Constitution to be heard before he might be
included on the Kill List and his First Amendment
rights to free speech before he might be targeted for
lethal action due to his profession. The D.C. Circuit and
the Supreme Court have previously held that a citizen
“must have a meaningful opportunity to challenge the
factual basis for his designation as an enemy combatant.” Doe v. Mattis, 889 F.3d 745, 759 (D.C. Cir. 2018);
see also Hamdi, 542 U.S. at 533 (“[A] citizen-detainee
seeking to challenge his classification as an enemy
combatant must receive notice of the factual basis for
his classification, and a fair opportunity to rebut the
Government’s factual assertions before a neutral decisionmaker.”). The Circuit recently extended the protections provided to detainees in Hamdi v. Rumsfeld
to a citizen in a foreign country opposing transfer
from U.S. custody to the custody of another nation. See
Doe v. Mattis, 889 F.3d at 761-62. While these latter
cases provide only guidance, not decision, their guidance is useful here because constitutional norms were

App. 60
extended to U.S. citizens abroad despite the context of
war-making. The difference between them and the instant matter is also notable: Mr. Kareem is not in U.S.
custody and, if targeted because he is on the Kill List,
may well have been identified by means other than his
name, profession, place of birth, and the like. Now that
he has made it to a U.S. court, however, his constitutional rights as a citizen must be recognized.
Neither of the al-Aulaqi decisions provides a useful final analysis here. Nasser al-Aulaqi challenged
“the facts of military decisions exercised thousands
of miles from the forum” and did so before the Presidential Policy Guidance was developed in 2013 or
published in 2016, thereby establishing the system
whereby such identification of targets is made by the
principals of U.S. defense agencies or the President in
Washington. Al-Aulaqi I, 727 F. Supp. 2d at 45. The
Bivens suit filed by Nasser al-Aulaqi after his son’s
death was decided on the peculiarities of Bivens precedent and the applicability of that decision to new fact
patterns. This case is brought by a U.S. citizen who
seeks to interpose accurate personal information concerning his profession and activities into specific targeting decisions.
These are weighty matters of law and fact but constitutional questions are the bread and butter of the
federal judiciary. The Court finds that Counts Four,
Five, and Six as presented by Mr. Kareem are justiciable.

App. 61
B. Failure to State a Claim
Defendants’ final argument in support of dismissal is the same as the first. They argue that Mr.
Kareem’s allegations that he has been put on the Kill
List are implausible and, therefore, fail to state a claim
upon which relief may be granted. For the reasons
stated above, the Court finds that Mr. Kareem’s allegations may be wrong as a matter of fact but the Complaint presents them in a plausible manner It will
deny Defendants’ motion to dismiss for failure to state
a claim
IV.

CONCLUSION

For the foregoing reasons the Court will grant in
part and deny in part Defendants’ Motion to Dismiss
[Dkt. 8]. A memorializing Order accompanies this Memorandum Opinion.
Date: June 13, 2018

/s/
ROSEMARY M. COLLYER
United States District Judge

App. 62
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
AHMAD MUAFFAQ ZAIDAN, )
)
et al.,
)
Plaintiffs,
)
v.
)
Civil Action
No.
17-581 (RMC)
)
DONALD J. TRUMP,
)
President of the
)
United States, et al.,
)
Defendants.
)
ORDER
(Filed Jun. 13, 2018)
For the reasons stated in the Memorandum Opinion issued contemporaneously with this Order, it is
hereby
ORDERED that Defendants’ Motion to Dismiss
[Dkt. 8] is GRANTED in part and DENIED in part;
and it is
FURTHER ORDERED that all Counts as to Mr.
Zaidan are DISMISSED, Counts One, Two, and Three
as to Mr. Kareem are DISMISSED, and Donald J.
Trump is DISMISSED as a Defendant. Counts Four,
Five, and Six as to Mr. Kareem remain; and it is

App. 63
FURTHER ORDERED that the Court will contact the parties to set a status conference.
Date: June 13, 2018

/s/
ROSEMARY M. COLLYER
United States District Judge

App. 64
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
Plaintiff,
)
)
v.
Civil Action
)
GINA CHERI HASPEL,
No. 17-581 (RMC)
)
Director of the Central
Intelligence Agency, et al., )
)
Defendants.
)
BILAL ABDUL KAREEM,

MEMORANDUM OPINION
(Filed Sep. 24, 2019)
What constitutional right is more essential than
the right to due process before the government may
take a life? While the answer may be none, federal
courts possess limited authority to resolve questions
presented in a lawsuit, even when they are alleged to
involve constitutional rights. This is such a case. Despite the serious nature of Plaintiffs allegations, this
Court must dismiss the action pursuant to the government’s invocation of the state secrets privilege.
Plaintiff Bilal Abdul Kareem is a journalist specializing in reporting on terrorism and conflict in the
Middle East. Mr. Kareem has been the victim or near
victim of at least five aerial bombings while in Syria.
Accordingly, he believes his name is on a list of individuals the United States has determined are terrorists
and may be killed (the so-called Kill List). Mr. Kareem

App. 65
sues the Director of the Central Intelligence Agency
(CIA), the Secretary of the Department of Defense
(DOD), the Secretary of the Department of Homeland
Security (DHS), the Attorney General, and the Director of National Intelligence (DNI), all in their official
capacities, as well as the Department of Justice (DOJ),
DOD, DHS, and CIA. The Court previously granted in
part and denied in part Defendants’ motion to dismiss
for lack of standing and failure to state a claim upon
which relief may be granted. Defendants now move to
dismiss Mr. Kareem’s remaining claims pursuant to
the state secrets privilege arguing that the facts necessary for Mr. Kareem to establish his prima facie
case or for Defendants to defend against his claims
are classified and without disclosure of those facts the
case cannot proceed. Having carefully considered the
issues, this Court agrees.
I.

BACKGROUND

The facts are described in detail in the decision on
Defendants’ first motion to dismiss, so they will be repeated here only as relevant. See Zaidan v. Trump, 317
F. Supp. 3d 8, 14-16 (D.D.C. 2018). After the Court permitted three of Mr. Kareem’s claims to proceed, the
parties discussed potential pretrial resolution. Despite
two months of discussions, the parties were unable to
resolve the litigation.1 Mr. Kareem then asked to begin

1

Defendants agreed to review a written submission from Mr.
Kareem to consider if in fact a decision about whether to target
him had been made or was contemplated. Mr. Kareem declined

App. 66
discovery and Defendants notified the Court that they
were considering a second motion to dismiss based on
the state secrets privilege.
After considerable time, due to multiple motions
for extension of time and an extensive government
shutdown, Defendants filed a motion to dismiss pursuant to the state secrets privilege on January 30, 2019.
Mem. in Supp. of Defs.’ Mot. to Dismiss (Mot.) [Dkt. 241]. Mr. Kareem opposed. Pl.’s Mem. of Law in Opp’n to
Defs.’ Mot. to Dismiss (Opp’n) [Dkt. 27]. Defendants replied. Reply to Pl.’s Opp’n to Defs.’ Mot. to Dismiss (Reply) [Dkt. 28]. The motion is ripe for review.
II.

LEGAL STANDARD

The United States is privileged to refuse to disclose information requested in litigation when “there
is a reasonable danger” that the disclosure “will expose
military matters which, in the interest of national security, should not be divulged.” United States v. Reynolds, 345 U.S. 1, 10 (1953). The privilege “is not to be
lightly invoked,” id. at 7, but “[c]ourts should accord
the ‘utmost deference’ to executive assertions of privilege upon grounds of military or diplomatic secrets.”
Halkin v. Helms, 598 F.2d 1, 9 (D.C. Cir. 1978) (Halkin
I) (quoting United States v. Nixon, 418 U.S. 683, 710
(1974)).

and asked to review the information the Defendants already had
in order to rebut it.

App. 67
Review of an invocation of the state secrets privilege occurs in three steps. First, “[t]here must be a
formal claim of privilege, lodged by the head of the department which has control over the matter, after actual personal consideration by that officer.” Reynolds,
345 U.S. at 7-8. Next, the Court must evaluate the basis for the privilege “without forcing a disclosure of the
very thing the privilege is designed to protect.” Id. at 8.
The sensitivity of the privilege and the information at
issue requires the Court to review declarations submitted, both publicly and in camera, to determine if the
privilege is properly invoked. “[T]he court must be satisfied from all the evidence and circumstances, and
‘from the implications of the question, in the setting in
which it is asked, that a responsive answer to the question or an explanation of why it cannot be answered
might be dangerous because injurious disclosure could
result.’ If the court is so satisfied, the claim of the privilege will be accepted without requiring further disclosure.” Id. at 9 (quoting Hoffman v. United States, 341
U.S. 479, 486-87 (1951)). It is not necessary for the
Court to examine the actual evidence at issue to make
this determination. See id. at 9-10.
Finally, once the Court finds that there is a reasonable danger that disclosure of the information will
expose military matters or harm national security, the
Court must determine whether the case may proceed
without the information or whether it is so entwined
in the matter that the case cannot be litigated and dismissal is necessary. See Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1096 (9th Cir. 2010) (holding

App. 68
that when “there is no feasible way to litigate [the defendant’s] alleged liability without creating an unjustifiable risk of divulging state secrets,” the case must
be dismissed).
III.

ANALYSIS

A. Did the Government Satisfy the Procedural Requirements to Invoke the Privilege?
The government has satisfied the three procedural
requirements for invoking the state secrets privilege.
First, the privilege was asserted by the United States
government itself, not a third party. Second, the claim
of privilege was made through a formal declaration by
the heads of agency responsible for the information.
Patrick M. Shanahan, then-Acting Secretary of Defense, and Daniel R. Coats, then-Director of National
Intelligence, submitted formal declarations, both public and in cameral ex parte, explaining that they are
the individuals responsible for the relevant information
and invoking the privilege. See Ex. 1, Mot., Public Decl.
and Assertion of Military and State Secrets Privilege
by Patrick M. Shanahan, Acting Secretary of Defense
(Shanahan Decl.) [Dkt. 24-2]; Ex. 2, Mot., Decl. of Daniel R. Coats, Director of National Intelligence (Coats
Decl.) [Dkt. 24-3]. Third, Acting Secretary Shanahan
and Director Coats both declared that they personally
reviewed the relevant information and determined
that invoking the state secrets privilege was warranted. See Shanahan Decl. ¶ 8; Coats Decl. ¶ 9.

App. 69
B. Does the Information Qualify as Privileged?
“When properly invoked, the state secrets privilege is absolute. No competing public or private
interest can be advanced to compel disclosure of information found to be protected by a claim of privilege.”
Ellsberg v. Mitchell, 709 F.2d 51, 57 (D.C. Cir. 1983).
Due to the absolute nature of the privilege, “a court
must not merely unthinkingly ratify the executive’s assertion of absolute privilege, lest it inappropriately
abandon its important judicial role.” In re United
States of America, 872 F.2d 472, 475 (D.C. Cir. 1989).
The government is required to show that disclosure of
“the information poses a reasonable danger to secrets
of state.” Halkin v. Helms, 690 F.2d 977, 990 (D.C. Cir.
1982) (Halkin II).
Other claims of privilege can be often overcome
when the necessity presented by the requesting party
outweighs the privilege, but such is not the case when
state secrets would be disclosed. Instead, the degree of
necessity “determine[s] how far the court should probe
in satisfying itself that the occasion for invoking the
privilege is appropriate. Where there is a strong showing of necessity, the claim of privilege should not be
lightly accepted, but even the most compelling necessity cannot overcome the claim of privilege if the court
is ultimately satisfied that military secrets are at
stake.” Reynolds, 345 U.S. at 11 (citing Totten v. United
States, 92 U.S. 105, 107 (1875)). “Therefore, the critical
feature of the inquiry in evaluating the claim of privilege is not a balancing of ultimate interests at stake in

App. 70
the litigation. That balance has already been struck.
Rather, the determination is whether the showing of
the harm that might reasonably be seen to flow from
disclosure is adequate in a given case to trigger the absolute right to withhold the information sought in that
case.” Halkin II, 690 F.2d at 990.
Mr. Kareem’s claims involve allegations that the
United States targeted an American citizen for lethal
action in a foreign country without due process of law.
His need for the information to prove his claims is unquestionably strong. Thus, “close examination of the
government’s assertions is warranted.” Ellsberg, 709
F.2d at 63.
The government invokes the state secrets privilege to protect “the existence and operational details of
alleged military and intelligence activities directed at
combating the terrorist threat to the United States.”
Mot. at 6. Mr. Kareem specifically requests discovery
into:
(i)

whether or not the United States has in
fact targeted Kareem for lethal force and,
if so, the facts on which the Government
allegedly relied in reaching a purposed
determination;

(ii) what process the Government used to allegedly designate Kareem and, if he continues to be an alleged target, what the
current targeting process is; and

App. 71
(iii) whether or not the United States attempted to kill Kareem in the airstrikes
alleged in the Complaint.
Id. at 6-7. Based on a review of the public and classified
declarations, the Court finds that the information Mr.
Kareen asks for constitutes privileged state secrets because “there is a reasonable danger” that disclosing
such information would endanger national security.
Reynolds, 345 U.S. at 10. “Detailed statements underscore that disclosure of [the privileged] information . . .
and the means, sources and methods of intelligence
gathering in the context of this case would undermine
the government’s intelligence capabilities and compromise national security.” Al-Haramain Islamic Found,
Inc. v. Bush, 507 F.3d 1190, 1204 (9th Cir. 2007).
The government explains that disclosure of
whether an individual is being targeted for lethal action would permit that individual to alter his behavior
to evade attack or capture and could risk intelligence
sources and methods if an individual learns he is under surveillance. See Mot. at 11. Acting Secretary Shanahan stated in his public declaration that disclosing
classified information about targeted airstrikes could
hinder the United States’ military operations in Syria,
see Shanahan Decl. ¶¶ 15-16, and disclosing whether
the United States possesses information about a particular individual could alert them, allow them to seek
to prevent further collection, and risk disclosure of
intelligence sources and methods, thereby thwarting
intelligence efforts. See id. ¶¶ 17-18. Director Coats
similarly declared that: (1) disclosing whether the

App. 72
United States targets terrorists abroad with lethal
force “could reasonably be expected to cause harm to
national security by alerting terrorists and terrorist organizations to specific means that the U.S. Government is using, or has chosen not to use, to combat
terrorism,” Coats Decl. ¶ 12; (2) confirming or denying
whether Mr. Kareem has been designated for the use
of lethal force could permit him to evade capture or further action by the United States, see id. ¶¶ 13-14; and
(3) disclosing whether the United States maintains information about Mr. Kareem could “reveal the sources
and methods by which such information was obtained,
compromising the safety and effectiveness of those
sources and methods.” Id. ¶ 16.
Mr. Kareem raises four points against allowing the
privilege to apply. First, he argues that the constitutional right at issue—his right to due process before
the United States can take his life—is so paramount
as to make the state secrets privilege inapplicable. Second, he asks the Court to consider alternative methods
of protecting the information, such as use of the Classified Information Procedures Act (CIPA), 18 U.S.C.
App. III, § 1 et seq., to ensure the classified information
is not disclosed outside cleared counsel and the Court.
Third, Mr. Kareem challenges the assertion that all of
the information remains privileged because the United
States has previously disclosed that U.S. citizens were
targeted with lethal action. Finally, he differentiates
his request for ad hoc relief—review of the alleged decision to target him with lethal action before the targeting is successful—with prior state secrets privilege

App. 73
cases which requested post hoc relief—challenges to
actions taken by the government which could not be
further prevented or undone.
Mr. Kareem’s first objection focuses on the significance of the right at issue—his right to due process,
i.e., evidence and argument before the United States
can take his life. But the state secrets privilege is absolute. Invocation of the privilege has the “serious potential [to] defeat[ ] worthy claims for violations of
rights that would otherwise be proved”; it is for this
reason that “the privilege is not to be lightly invoked.”
In re United States, 872 F.2d at 476 (internal quotation
marks and citations omitted); see also In re Sealed
Case, 494 F.3d 139, 143 (D.C. Cir. 2007) (“[I]t hardly
follows that the privilege evaporates in the presence of
an alleged constitutional violation.”); Halkin II, 690
F.2d at 1001 (“Although under this analysis there may
indeed be illegal or unconstitutional actions which will
go unchallenged in a federal court due to the lack of a
proper party to bring suit, that is the result required
here.”) (internal quotation marks and citation omitted). Thus, the government did not rush to claim state
secrets here, although it warned such secrets were at
issue, it only filed the instant motion when the Court
denied its first motion to dismiss. The Court finds that
the government has not invoked the privilege lightly
but has instead engaged in months of consideration
before filing its motion supported by reasoned declarations from the heads of the agencies responsible
for the information. Nonetheless, the significance of
Mr. Kareem’s allegations requires the Court to take a

App. 74
thorough and questioning look at the reasons presented by the United States for invoking the privilege,
but it does not erase the privilege altogether.
While no courts have previously addressed the
state secrets privilege in the context of targeted killing,
courts have addressed the privilege in cases involving
other constitutional claims. The privilege has been invoked in cases involving warrantless surveillance, see,
e.g., Mohamed, 614 F.3d at 1073 (affirming dismissal of
challenge to an alleged extraordinary rendition program of the Central Intelligence Agency due to the invocation of the state secrets privilege); Al-Haramain,
507 F.3d at 1205 (holding that the state secrets privilege prevented disclosure of classified information and
without that information plaintiff could not establish
standing to challenge his alleged surveillance; case remanded for consideration of the interplay between the
state secrets privilege and the Foreign Intelligence
Surveillance Act, 50 U.S.C. § 1801 et seq.); Halkin II,
690 F.2d at 981 (upholding dismissal of claims under
the First, Fourth, Fifth, and Ninth Amendments, involving warrantless rendition and torture, due to the
invocation of the state secrets privilege); El-Masri v.
Tenet, 437 F. Supp. 2d 530, 539 (E.D. Va. 2006) (“Thus,
while dismissal of the complaint deprives El-Masri of
an American judicial forum for vindicating his claims,
well-established and controlling legal principles require that in the present circumstances, El-Masri’s private interests must give way to the national interest in
preserving state secrets.”), aff ’d sub nom. El-Masri v.
United States, 479 F.3d 296 (4th Cir. 2007). In each of

App. 75
those instances, invocation of the state secrets privilege was sufficient to prevent adjudication of the underlying constitutional claims and Mr. Kareem points
to no legal authority that would permit this Court to
hold differently in this case.2
Next, Mr. Kareem probes the limits of the state secrets privilege and likens his predicament to a criminal trial. Based on that analogy, he requests that this
Court institute CIPA rules to protect the privileged information, rather than excluding it altogether.3 In a
criminal trial, the government may not withhold information that would be material to the defense even if it
2

Mr. Kareem proposes that persons placed on the Kill List
should be provided the same procedural protections as organizations designated as terrorists by the State Department or Treasury. This Court is not the proper institution to adopt that
proposal. See Halkin II, 690 F.2d at 1001 (“[W]here the Constitution compels the subordination of [plaintiff’s] interest in the pursuit of [his] claims to the executive’s duty to preserve our national
security, this means that remedies for constitutional violations
that cannot be proven under existing legal standards, if there are
to be such remedies, must be provided by Congress. . . . [T]hat is
where the responsibility for compensating those injured in the
course of pursuing the ends of state must lie.”).
3
“In criminal proceedings under the Classified Information
Procedures Act (CPA) . . . the government may move for alternatives to disclosing classified information, such as substituting ‘a
statement admitting relevant facts that the specific classified information would tend to prove’ or ‘a summary of the specific classified information.’ The district court must ‘grant such a motion if
it finds that the statement or summary will provide the defendant
with substantially the same ability to make his defense as would
disclosure of the specific classified information.’ ” Al Odah v.
United States, 559 F.3d 539, 547 (D.C. Cir. 2009) (quoting 18
U.S.C. App. III, § 6(c)(1)).

App. 76
is a privileged state secret; to do so would be to deprive
the defendant of liberty without due process. The
United States may either proceed with the indictment
and disclose the information or forego prosecution by
dismissing the charges. See Reynolds, 345 U.S. at 12
(“The rationale of the criminal cases is that, since the
Government which prosecutes an accused also has
the duty to see that justice is done, it is unconscionable to allow it to undertake prosecution and then
invoke its governmental privileges to deprive the accused of anything which might be material to his defense.”). However, the Supreme Court has held when
the government is not the movant in a civil case the
rationale applied in criminal cases is not applicable.
See id. (“Such rationale has no application in a civil forum where the Government is not the moving party,
but is a defendant only on terms to which it has consented.”).
Mr. Kareem specifically equates his situation with
a criminal capital case, where extra procedural protections are provided the defendant to ensure that punishment “is not meted out arbitrarily or capriciously.”
California v. Ramos, 463 U.S. 992, 999 (1983). He argues that before a criminal defendant may be subject
to capital punishment he has the opportunity to review, and potentially dispute, “a fulsome record of
the allegations and considerations that will be used
against him.” Opp’n at 5. He asks this Court for the
same protections because he fears the United States
military will kill him. Were the United States to choose
to prosecute Mr. Kareem for his alleged involvement in

App. 77
terrorist activities, the government would be required
to disclose, with the relevant protections, any classified
information that would be material to Mr. Kareem’s
defense. But Mr. Kareem is not a criminal defendant,
he is a plaintiff in a civil suit against the United States,
which setting renders the state secrets privilege absolute after it is properly asserted.
Third, Mr. Kareem challenges the legitimacy of the
privilege because the United States has previously disclosed the existence of the Kill List and indicated that
a United States citizen had been on the list. See AlAulaqi v. Panetta, 35 F. Supp. 3d 56, 59 (D.D.C. 2014)
(“President Barack Obama and Attorney General Eric
Holder, Jr., have admitted that the United States targeted and killed Anwar Al-Aulaqi, a terrorist who was
a key leader of al-Qa’ida in the Arabian Peninsula.”).
Mr. Kareem challenges the legitimacy of invoking the
state secrets privilege here since the United States
previously determined that its security interests allowed the disclosure of a name on the Kill List. Contrary to Mr. Kareem’s argument, the D.C. Circuit has
already found that “[t]he government is not estopped
from concluding in one case that disclosure is permissible while in another case it is not.” Halkin I, 598 F.2d
at 9. This Court concludes that a previous U.S. disclosure that an individual had been targeted for lethal action does not mean that it has waived its right, as a
state secret, to refuse to disclose the who, why, and how
it might identify future targets.
Finally, Mr. Kareem argues that the prospective
nature of his case differentiates his dilemma from

App. 78
previous cases dealing with the state secrets privilege
that challenged actions already taken by the United
States. He maintains that none of the cited cases “involved a prosecution of a U.S. citizen or any action
analogous to a prosecution.” Opp’n at 12. In this assertion he is correct: he is a U.S. citizen, voluntarily in
Syria, reporting on the fighting by insurgents, and allegedly targeted by the United States without success
so far. However, the applicability of the state secrets
privilege has consistently been recognized in civil litigation against the United States even when a plaintiff
was alleging violations of constitutional rights, which
is exactly what the instant lawsuit entails. The Court
understands the differences between this and prior
cases but the similarities are controlling and require
the same conclusion.
A court does not merely ratify the government’s
assertion of privilege willy-nilly. This Court has reviewed the declarations submitted by the government
and carefully considered Mr. Kareem’s claims and need
for the documents, as well as the reasoning behind the
privilege. Consistent thereto, the Court finds the state
secrets privilege bars disclosure of the requested information to Mr. Kareem because disclosure would present a reasonable danger to national security.
C. May the Case Proceed Without the Privileged Information?
There is still a question as to whether the unavailability of the requested information is fatal to

App. 79
Mr. Kareem’s complaint. A court must dismiss a case
in which a privilege of state secrets is sustained when:
(1) disclosure is necessary for the plaintiff to make its
prima facie case; (2) disclosure is necessary for the defendant to defend itself; or (3) further litigation would
present an unjustifiable risk of disclosure. See Mohamed, 614 F.3d at 1087. The United States focuses
on Mr. Kareem’s prima facie case, arguing that Mr.
Kareem cannot establish his standing to sue without
the information. The Court agrees and notes that all
three reasons justify dismissal. Because “there is no
feasible way to litigate [the United States’] alleged
liability without creating an unjustifiable risk of divulging state secrets,” this case must be dismissed. Id.
“[T]he claims and possible defenses are so infused with
state secrets that the risk of disclosing them is both
apparent and inevitable.” Id. at 1089.
To prove his prima fade case, Mr. Kareem must be
able to show he was in fact targeted by the United
States with lethal force. The Court previously found
Mr. Kareem alleged facts sufficient, if proven, to survive a motion to dismiss, but having now held that the
government is not required to disclose whether Mr.
Kareem has been targeted as alleged, it is impossible
for Mr. Kareem to obtain the necessary information to
prove his claims. Without access to the privileged information, Mr. Kareem is unable to establish whether
he was targeted by lethal force or what information
was considered in reaching the alleged decision to target him. Mr. Kareem is “incapable of demonstrating
that [he has] sustained a violation of his constitutional

App. 80
rights without the withheld information. Halkin II,
690 F.2d at 999. He “ha[s] alleged, but ultimately cannot show, a concrete injury amounting to either a ‘specific present objective harm or a threat of specific
future harm.’ ” Id. (quoting Laird v. Tatum, 408 U.S. 1,
14 (1972)). In this instance, in which the relevant information is solely in the control of the United States
and is protected by the state secrets privilege, Mr.
Kareem is left with no method to obtain it to pursue
his case, which must therefore be dismissed. The same
analysis applies to the government’s ability to defend
itself against the allegations and also requires dismissal.
When a plaintiff ’s prima facie case and a defendant’s defenses are not affected by the state secrets privilege, a court must still dismiss if “any attempt to
proceed will threaten disclosure of the privileged matters.” Fitzgerald v. Penthouse Int’l, Ltd., 776 F.2d 1236,
124142 (4th Cir. 1985). In that circumstance, the risk
of disclosure alone leads to dismissal. The analysis applies here. The totality of the issues to be litigated surrounds the alleged decision to target Mr. Kareem but
all such information is privileged as state secrets and
will not be disclosed by the United States. “With no
hope of a complete record and adversarial development
of the [relevant] issue,” Halkin II, 690 F.2d at 1000, the
Court cannot even begin an inquiry. The Complaint
must be dismissed.

App. 81
IV.

CONCLUSION

For the foregoing reasons the Court will grant Defendants’ Motion to Dismiss pursuant to the State
Secrets Privilege [Dkt. 24]. A memorializing Order accompanies this Memorandum Opinion.
Date: September 24, 2019

/s/
ROSEMARY M. COLLYER
United States District Judge

App. 82
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
Plaintiff,
)
)
v.
Civil Action
)
GINA CHERI HASPEL,
No. 17-581 (RMC)
)
Director of the Central
Intelligence Agency, et al., )
)
Defendants.
)
BILAL ABDUL KAREEM,

ORDER
(Filed Sep. 24, 2019)
For the reasons stated in the Memorandum Opinion issued contemporaneously with this Order, it is
hereby
ORDERED that Defendants’ Motion to Dismiss
pursuant to the State Secrets Privilege, Dkt. 24, is
GRANTED.
This is a final appealable Order. See Fed. R. App.
4(a). This case is closed.
Date: September 24, 2019

/s/
ROSEMARY M. COLLYER
United States District Judge

App. 83
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
NO. 19-5328

September Term, 2020
1:17-cv-00581-RMC
Filed On: April 20, 2021

Ahmad Muaffaq Zaidan,
Appellee
Bilal Abdul Kareem,
Appellant
v.
Joseph R. Biden, Jr., President
of the United States, et al.,
Appellees
BEFORE: Srinivasan, Chief Judge; Henderson
and Millett, Circuit Judges
ORDER
Upon consideration of appellant’s corrected petition for panel rehearing filed on March 2, 2021, and the
response thereto, it is
ORDERED that the petition be denied.

App. 84
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Kathryn D. Lovett
Deputy Clerk

App. 85
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
NO. 19-5328

September Term, 2020
1:17-cv-00581-RMC
Filed On: April 20, 2021

Ahmad Muaffaq Zaidan,
Appellee
Bilal Abdul Kareem,
Appellant
v.
Joseph R. Biden, Jr., President
of the United States, et al.,
Appellees
BEFORE: Srinivasan, Chief Judge; and Henderson, Rogers, Tatel, Millett, Pillard, Wilkins, Katsas, Rao, and Walker, Circuit
Judges
ORDER
Upon consideration of appellant’s corrected petition for rehearing en banc, and the absence of a request
by any member of the court for a vote, it is
ORDERED that the petition be denied.

App. 86
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Kathryn D. Lovett
Deputy Clerk

App. 87
RELEVANT CONSTITUTIONAL PROVISIONS,
STATUTES, AND RULES
Constitution of the United States
Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property be taken for public use, without just compensation.

5 U.S.C. § 702
Right of review
A person suffering legal wrong because of agency action, or adversely affected or aggrieved by agency action within the meaning of a relevant statute, is
entitled to judicial review thereof. An action in a court
of the United States seeking relief other than money
damages and stating a claim that an agency or an officer or employee thereof acted or failed to act in an
official capacity or under color of legal authority shall
not be dismissed nor relief therein be denied on the
ground that it is against the United States or that the

App. 88
United States is an indispensable party. The United
States may be named as a defendant in any such action, and a judgment or decree may be entered against
the United States: Provided, That any mandatory or
injunctive decree shall specify the Federal officer or officers (by name or by title), and their successors in office, personally responsible for compliance. Nothing
herein (1) affects other limitations on judicial review
or the power or duty of the court to dismiss any action
or deny relief on any other appropriate legal or equitable ground; or (2) confers authority to grant relief if any
other statute that grants consent to suit expressly or
impliedly forbids the relief which is sought.

5 U.S.C. § 704
Actions reviewable
Agency action made reviewable by statute and final
agency action for which there is no other adequate
remedy in a court are subject to judicial review. A preliminary, procedural, or intermediate agency action or
ruling not directly reviewable is subject to review on
the review of the final agency action. Except as otherwise expressly required by statute, agency action otherwise fonal is final for the purposes of this section
whether or not there has been presented or determined
an application for a declaratory order, for any form of
reconsideration, or, unless the agency otherwise requires by rule and provides that the action meanwhile

App. 89
is inoperative, for an appeal to superior agency authority.

5 U.S.C. § 706
Scope of review
To the extent necessary to decision and when presented, the reviewing court shall decide all relevant
questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability
of the terms of an agency action. The reviewing court
shall –
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be –
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law;
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of statutory
right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in
a case subject to sections 556 and 557 of this

App. 90
title or otherwise reviewed on the record of an
agency hearing provided by statute; or
(F) unwarranted by the facts to the extent
that the facts are subject to trial de novo by
the reviewing court.
In making the foregoing determinations, the court
shall review the whole record or those parts of it cited
by a party, and due account shall be taken of the rule
of prejudicial error.

28 U.S.C. § 2072
Rules of procedure and evidence; power to prescribe
(a) The Supreme Court shall have the power to prescribe general rules of practice and procedure and
rules of evidence for cases in the United States district
courts (including proceedings before magistrate judges
thereof ) and courts of appeals.
(b) Such rules shall not abridge, enlarge or modify
any substantive right. All laws in conflict with such
rules shall be of no further force or effect after such
rules have taken effect.
(c) Such rules may define when a ruling of a district
court is final for the purposes of appeal under section
1291 of this title.

App. 91
Federal Rules of Civil Procedure
Rule 8. General Rules of Pleading
(a) Claim for Relief. A pleading that states a claim
for relief must contain:
(1) a short and plain statement of the grounds
for the court’s jurisdiction, unless the court already has jurisdiction and the claim needs no new
jurisdictional support;
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief; and
(3) a demand for the relief sought, which may include relief in the alternative or different types of
relief.
(b)

Defenses; Admissions and Denials.
(1) In General. In responding to a pleading, a
party must:
(A) state in short and plain terms its defenses to each claim asserted against it; and
(B) admit or deny the allegations asserted
against it by an opposing party.
(2) Denials – Responding to the Substance.
A denial must fairly respond to the substance of
the allegation.
(3) General and Specific Denials. A party that
intends in good faith to deny all the allegations of
a pleading – including the jurisdictional grounds
– may do so by a general denial. A party that does
not intend to deny all the allegations must either

App. 92
specifically deny designated allegations or generally deny all except those specifically admitted.
(4) Denying Part of an Allegation. A party
that intends in good faith to deny only part of an
allegation must admit the part that is true and
deny the rest.
(5) Lacking Knowledge or Information. A
party that lacks knowledge or information sufficient to form a belief about the truth of an allegation must so state, and the statement has the
effect of a denial.
(6) Effect of Failing to Deny. An allegation –
other than one relating to the amount of damages
– is admitted if a responsive pleading is required
and the allegation is not denied. If a responsive
pleading is not required, an allegation is considered denied or avoided.
(c)

Affirmative Defenses.
(1) In General. In responding to a pleading, a
party must affirmatively state any avoidance or
affirmative defense, including:
•

accord and satisfaction;

•

arbitration and award;

•

assumption of risk;

•

contributory negligence;

•

duress;

•

estoppel;

•

failure of consideration;

App. 93
•

fraud;

•

illegality;

•

injury by fellow servant;

•

laches;

•

license;

•

payment;

•

release;

•

res judicata;

•

statute of frauds;

•

statute of limitations; and

•

waiver.

(2) Mistaken Designation. If a party mistakenly designates a defense as a counterclaim, or a
counterclaim as a defense, the court must, if justice requires, treat the pleading as though it were
correctly designated, and may impose terms for
doing so.
(d) Pleading to Be Concise and Direct; Alternative Statements; Inconsistency.
(1) In General. Each allegation must be simple,
concise, and direct. No technical form is required.
(2) Alternative Statements of a Claim or
Defense. A party may set out 2 or more statements of a claim or defense alternatively or hypothetically, either in a single count or defense or in
separate ones. If a party makes alternative

App. 94
statements, the pleading is sufficient if any one of
them is sufficient.
(3) Inconsistent Claims or Defenses. A party
may state as many separate claims or defenses as
it has, regardless of consistency.
(e) Construing Pleadings. Pleadings must be construed so as to do justice.

Federal Rules of Evidence
Rule 201. Judicial Notice of Adjudicative Facts
(a) Scope. This rule governs judicial notice of an adjudicative fact only, not a legislative fact.
(b) Kinds of Facts That May Be Judicially Noticed. The court may judicially notice a fact that is not
subject to reasonable dispute because it:
(1) is generally known within the trial court’s
territorial jurisdiction; or
(2) can be accurately and readily determined
from sources whose accuracy cannot reasonably be
questioned.
(c)

Taking Notice. The court:
(1)

may take judicial notice on its own; or

(2) must take judicial notice if a party requests
it and the court is supplied with the necessary information.

App. 95
(d) Timing. The court may take judicial notice at
any stage of the proceeding.
(e) Opportunity to Be Heard. On timely request,
a party is entitled to be heard on the propriety of taking judicial notice and the nature of the fact to be noticed. If the court takes judicial notice before notifying
a party, the party, on request, is still entitled to be
heard.
(f ) Instructing the Jury. In a civil case, the court
must instruct the jury to accept the noticed fact as conclusive. In a criminal case, the court must instruct the
jury that it may or may not accept the noticed fact as
conclusive.

App. 96
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
AHMAD MUAFFAQ ZAIDAN;
BILAL ABDUL KAREEM,
Appellant,

No. 19-5328

v.
DONALD J. TRUMP,
PRESIDENT OF THE
UNITED STATES, ET AL.,

Monday,
November 16, 2020
Washington, D.C.

Appellees.
The above-entitled matter came on for oral argument pursuant to notice.
BEFORE:
CHIEF JUDGE SRINIVASAN, AND CIRCUIT
JUDGES HENDERSON AND MILLETT
APPEARANCES:
ON BEHALF OF THE APPELLANT:
TARA J. PLOCHOCKI, ESQ.
ON BEHALF OF THE APPELLEES:
BRAD HINSHELWOOD (DOJ), ESQ.
*

*

*

App. 97
CONTENTS
ORAL ARGUMENT OF:
TARA J. PLOCHOCKI, Esq.
On Behalf of the Appellant
BRAD HINSHELWOOD, Esq.
On Behalf of the Appellees

PAGE
3; 41
20

[3] PROCEEDINGS
THE CLERK: Case Number 19-5328, Ahmad Muaffaq Zaidan; Bilal Abdul Kareem, appellant
versus Donald J. Trump, President of the United
States, et al. Ms. Plochocki for the appellant. Mr. Hinshelwood for the appellees.
JUDGE SRINIVASAN: Ms. Plochocki, please
proceed when you’re ready.
ORAL ARGUMENT OF TARA J. PLOCHOCKI, ESQ.
ON BEHALF OF THE APPELLANT
MS. PLOCHOCKI: Good morning, Your
Honors, and may it please the Court. This is a case of
first impression in which the Government has argued
that it may designate a U.S. citizen for execution without due process and insulate that decision from judicial review on the basis that it’s a state secret. This
represents a radical expansion of the state secrets
privilege and the Fifth Amendment’s guarantee of due
process forecloses the Government’s argument.

App. 98
Mr. Kareem is a U.S. citizen and a journalist. He
has rights. They are justiciable. And the Government
does not have the discretion to bypass the Constitution
by invoking a common law evidentiary privilege. Our
position here is simple. An American citizen who demands due process upon discovery that he is a target
of lethal action is entitled to notice of the basis for that
action and an opportunity to challenge it. That is basic
due process, and [4] no U.S. court has permitted less
when a U.S. citizen has come before it.
JUDGE SRINIVASAN: Can I just take you
to the question of standing for a second before we get
into the teeth of the state secrets issue? And on standing, one key consideration that’s pointed to is that at
least one of the alleged strikes was a Hellfire missile.
MS.

PLOCHOCKI:

That’s

correct, Your

Honor.
JUDGE SRINIVASAN: And that’s in the
complaint at page 49, I’m sorry, paragraph 49, I think,
at JA-22. The vehicle Kareem and his staff was struck
and destroyed by a drone-launched Hellfire missile,
which seems to be a significant fact in your view because it more explicitly links it, that attack at least to
the possibility that it was the United States.
And then I just noticed in your brief at page 9 that,
your opening brief, and it says the strike came in the
form of what appeared to be a Hellfire missile. And
since it’s a somewhat significant fact whether it’s a
Hellfire missile, I’m just wondering why the brief

App. 99
frames it in terms of what appeared to be rather than
the allegation in the complaint that it is.
MS. PLOCHOCKI: Your Honor, our brief did
not intend to depart from the facts alleged in the complaint. In terms of saying it appeared to be a Hellfire
missile, of [5] course it’s impossible with any kind of
certainty without having had an opportunity to move
to the merits stage to prove that it was Hellfire missile,
but Mr. Kareem does allege that it was a Hellfire missile.
JUDGE SRINIVASAN: So, then, can I ask
you this question? Let’s just, there are some issues
about Hellfire missiles, the extent to which that says
that it’s the United States, that indicates that it’s the
United States as opposed to it could be somebody else.
But if we take that one, that particular attack out of
the field of vision just for argument’s purposes. I understand that we’re not taking it out, but let’s just do
it for argument’s purposes. And what you have is the
other four, would you still take the position that you’ve
advanced past possibility to plausibility in terms of the
United States being responsible for the missile attacks
based on the other four alone?
MS. PLOCHOCKI: Absolutely, Your Honor.
As we’ve alleged in our complaint, the United States
uses signal intelligence and metadata in order to determine who to target for lethal action. In this case,
the Government has admitted that it conducts lethal strikes in Syria, that it was doing so during the
time that Mr. Kareem was struck. Mr. Kareem uses

App. 100
signal-emitting devices, and he was struck, in your hypothetical, four times then, with incredible precision,
not in the context of an ongoing battle, but four [6]
unique strikes, including two on his office, two on his
vehicle I think are the ones that would be –
JUDGE MILLETT:
was his employer’s office.

It wasn’t his office. It

MS. PLOCHOCKI: Well, On the Ground
Network is constructively Mr. Kareem’s operation.
JUDGE MILLETT:

He’s the only one?

MS. PLOCHOCKI: He’s not the only person,
no, but it’s –
JUDGE MILLETT:

Are there other –

JUDGE HENDERSON: Have you alleged
that these were the only strikes made on those days? I
don’t see anything. You’ve painted a picture as if one
missile hit on each one of these days. And I frankly
think we could take judicial notice that in 2016, strikes
were being conducted all over Syria, and certainly including where Mr. Kareem was.
MS. PLOCHOCKI: Your Honor, that certainly is possible, but it doesn’t mean that the U.S.
didn’t undertake these strikes on Mr. Kareem deliberately. At the pleading stage, as you are well aware, Mr.
Kareem is only required to allege one plausible version
of facts. The Government is attempting to challenge
the merits of our allegations. We’ll have an opportunity
to do that in discovery. If the Government wants to

App. 101
prove that it was not the United States or that it was
some other actor, it can do so. But the [7] facts, as alleged, must be taken as true at this juncture, and
there’s nothing –
JUDGE HENDERSON: We can’t ignore reality. And frankly, it seems to me a spectacular delusion of some sort of grandeur that your client thinks
that the United States was aiming for him when
bombs and drones and missiles were hitting all over
that country and millions of people were fleeing for
their lives.
MS. PLOCHOCKI: But, Your Honor, in June
of 2016, there are no other facts on the record that suggest that there were a flurry of drone strikes occurring
in that month. That would require –
JUDGE HENDERSON:
question. Do we ignore reality?

I go back to my

MS. PLOCHOCKI: Your Honor, we don’t ignore reality, but I think at this juncture, reality for
June of 2016 in Aleppo, Syria has not been established
on this record. And so it would require incorporating
into the complaint facts that have not been alleged by
Mr. Kareem and certainly facts that have not been
raised by the Government. In fact, the Government’s
attempt to undermine the plausibility of Mr. Kareem’s
claim only shows that it’s more plausible that he was
targeted by the United States.
The Government says, for instance, well, the Assad regime executes journalists. But it doesn’t say so

App. 102
that it [8] did it by drone strikes. It also says that the
Assad regime uses drones indiscriminately, but indiscriminate strikes is not what happened to Mr. Kareem
here. These happened with eerie precision, and that’s
what’s pleaded in our complaint. Now, if there were
more facts on the record –
JUDGE MILLETT: Do you dispute that during June and July and August of 2016 Idlib province
and Aleppo were under almost daily fire?
JUDGE HENDERSON: I’m sorry, Judge
Millett, I can’t understand what you’re saying.
JUDGE MILLETT: Sorry. Do you dispute
that under that, in June, July, and August of 2016,
these particular parts of Syria in particular, Aleppo
and Idlib, I think it’s a province, were subject to routine
and severe bombings?
MS. PLOCHOCKI: Your Honor, I –
JUDGE MILLETT:

Do you dispute that

fact?
MS. PLOCHOCKI: I have no basis to confirm that fact. I do know, of course, as does Mr. Kareem,
that Syria was at civil war, and that strikes were undertaken, including the five on him.
JUDGE MILLETT: All right. I mean, like
Judge Henderson, I remember the news. Right? Russia
had come in at this point, and there were a lot of countries that were doing a lot of bombing. And Aleppo and
Idlib Province were particularly being torn apart that

App. 103
summer. And we’re going, [9] I think you say one of the
bombs happened in an area that had just switched control. They were going back and forth in control.
Now, if they’re going back and forth in control between government and rebel forces, that means it’s a
very active war zone. And I get you, I just, I was surprised that you or your client wouldn’t be familiar with
that so that you’re not able to. So I guess you dispute
just what the on-the-ground reality in this part of the
world was that summer?
MS. PLOCHOCKI: No, Your Honor. We do
not dispute that there were drone strikes undertaken
in Syria. Of course there was –
JUDGE MILLETT:
because you don’t –

Drones and bombs, and,

MS. PLOCHOCKI: And bombs. It was a civil
war zone, indeed.
JUDGE MILLETT: In this particular area,
it was an intense, an area of intense fighting. As you
said, as you allege as to one of them, it had just
switched from government to rebel or rebel to government control.
MS. PLOCHOCKI: But I think the thing to
remember in this case, Your Honor, as pleaded in the
complaint, we set forth facts that show that Mr.
Kareem was the target of these strikes, that is they hit
his vehicle, they hit –

App. 104
[10] JUDGE MILLETT: You say he was in
the, you allege he was in the vicinity of the strikes.
MS. PLOCHOCKI: I believe that we allege
they hit his office twice and his vehicles twice. And
that’s, that belies the notion that the strike was going
after some other thing. You know, the fact that these
landed on Mr. Kareem four times in June and once in
August, I mean, taken together this is evidence that
suggests that Mr. Kareem was the target. Moreover,
Mr. Kareem was also engaged in activities that would
suggest to metadata that he may have been involved
in hostile activity.
JUDGE MILLETT: What do you mean by
metadata? You use that a lot. The metadata that was
referenced in the quotation you have was telephone
metadata, which is not conversations, but who called
who when.
MS. PLOCHOCKI: That’s right, Your Honor.
Former –
JUDGE MILLETT: I don’t understand what
the connection here is, that he uses a telephone?
MS. PLOCHOCKI: The former director – no,
Your Honor. The former director of the CIA, General
Michael Hayden, says that we kill people based on
metadata. And we understand that to mean based on
public documents that this is signal intelligence. That
is, the U.S. uses devices that can track a cell phone’s
movements. Now, Mr. Kareem moved [11] back and
forth interviewing rebels.

App. 105
JUDGE MILLETT: I don’t think tracking a
cell phone’s movements is metadata. That’s just cell
tower pinging.
MS. PLOCHOCKI: I think it depends on
what’s being used to track the cell phone’s movements.
JUDGE MILLETT:

Okay.

MS. PLOCHOCKI: We have –
JUDGE MILLETT: I didn’t understand your
connection with the metadata at all because it was
talking about a very different context, and he never
said we kill U.S. citizens with metadata. Mr. Hayden –
MS. PLOCHOCKI: That’s exactly the point.
Your Honor has exactly landed on the point that’s of
concern here. We’re concerned with the erroneous deprivation of Mr. Kareem’s life on the basis of signal intelligence that may have misinformed the U.S.
Government about who exactly it had picked up.
JUDGE MILLETT: What do you mean on
the basis of signal intelligence?
MS. PLOCHOCKI: Signal intelligence, that
is if there is intelligence being conducted, which we
have pleaded in the complaint that there are programs
such as SKYNET that are able to latch onto a cell
phone and follow someone wherever they go. That’s
how they determine who’s a [12] courier. Had this been
used for Mr. Kareem, it would see that he had gone to
various rebel outposts and interviewed people.

App. 106
Now, to someone who doesn’t know that that’s a
U.S. journalist conducting interviews and then publishing them, that could look very suspicious. It’s our
contention that he was picked up by the signal intelligence, and it gave intelligence officers or agency heads
the wrong impression about who he is. And in keeping
with the concerns that animated Matthews v. Eldridge
and Lockett v. Ohio where there’s an erroneous, where
risk of, where there’s a risk of erroneous deprivation of
a person’s life or liberty interests, those interests must
be addressed in a manner which affords that person
due process. And that’s all we’re seeking here.
JUDGE MILLETT: The complaint alleges
some bombings in June and July, or June and August,
or July and August. And then seven months elapsed
before the complaint is filed without any allegation of
any attempted attacks at all. And we now know that
four years had gone by with no attacks. In a complaint
for injunctive relief, doesn’t the plausibility standard
require some showing that there’s still a plausible risk
of ongoing attacks?
MS. PLOCHOCKI: Well, Your Honor –
JUDGE MILLETT: It’s seven months or
four years by [13] the time a court, or longer, by the
time a court would get around to looking at injunction?
If you’re pleading for injunction, you have to show
some current risk at the time. And seven months had
gone by with nothing happening.
MS. PLOCHOCKI: Well, Your Honor, we are
not privy to how long the Government takes to execute

App. 107
someone who is on the kill list. In the case of Mr. Anwar
al-Awlaki, for example, we know that his designation
was made sometime before 2010, and that he was
killed in 2011. So there was at least –
JUDGE MILLETT: You don’t know that –
I’m sorry. Oh, okay. Go ahead. I’m sorry. Go ahead. Go
ahead. I misunderstood you. Yes.
MS. PLOCHOCKI: So there was at least a
year that went by before the Government executed
him. During the pendency of this litigation, it’s true
that the Government has not undertaken a drone
strike on him.
JUDGE MILLETT:

No.

MS. PLOCHOCKI: And if the Government –
JUDGE MILLETT: No, no, no. I’m talking
about the seven months before the complaint was filed.
MS. PLOCHOCKI: Your Honor, in that case –
JUDGE MILLETT: You can’t blame that on
the pendency of the litigation.
MS. PLOCHOCKI: Of course. Your Honor, in
that [14] case I would say that based on the example
that we’re aware of of where the Government has targeted U.S. citizens, seven months appears to be a reasonable and even smaller amount of time than it has
taken in the past when undertaking to execute someone on the kill list.

App. 108
JUDGE MILLETT: Okay. And then my understanding is that Mr. Kareem has disappeared, that
he was presumably taken by a terrorist group in Syria.
For purposes of a complaint seeking injunctive relief –
I mean, if you know otherwise, please tell me – seeking
injunctive relief, do we need to know whether he’s in a
position to benefit from it?
MS. PLOCHOCKI: Well, Your Honor –
JUDGE MILLETT: What should we do
about that fact that he seems to have been either taken
hostage or, you know, I hate to suggest the worst, but
one has to think about that.
MS. PLOCHOCKI: Your Honor, we have no
reason to believe that Mr. Kareem has been killed. We
do understand that he is in the custody of a rebel
group. We don’t think that allays any concerns about
whether or not he is on the kill list. There’s nothing to
say that when he is released that the U.S. won’t resume
its attempt on his life. Moreover, the fact that he is in
the same place makes it, you would think, easier to target him for death.
[15] But finally, I would say that if the Government, if there is a mootness issue, the Government can
clarify that for us. It has the option to say we don’t intend to kill Mr. Kareem. And if it does so, this entire
case goes away. And its resistance to doing so is what
prevents us from abandoning this action.
JUDGE MILLETT: That’s a different point
than what I was asking, so. Is he in a position where

App. 109
he could participate in a process, that he requests this
process to clear his name? Is there any way that he
could participate in that?
MS. PLOCHOCKI: Your Honor, if the Government were to call him for deposition next week, we
would have difficulty accommodating that request. But
we don’t have any reason to believe that –
JUDGE MILLETT: Right. So it’s a proceeding – I’m just, I’m asking a very intentional, practical
question. Could the proceeding that he wants out of
this litigation go forward at this time, or do we need to
wait?
MS. PLOCHOCKI: Your Honor, I believe the
proceeding can go forward. He has representation. We
have authority to proceed on his behalf. And when he
is released from custody, if his testimony or something
else is needed, he can willingly provide it.
JUDGE SRINIVASAN: Can I ask you a
question about [16] the constitutional claims that are
raised? So you have a Fourth Amendment claim in
your complaint as to which the allegation is that there
was an unlawful seizure.
MS. PLOCHOCKI: Yes, Your Honor.
JUDGE SRINIVASAN: Is that right? So,
and is the argument there that there is a seizure by
virtue of being allegedly put on the, the kill list?
MS. PLOCHOCKI: Yes, Your Honor.

App. 110
JUDGE SRINIVASAN: And would that
mean that you could bring a habeas claim? So in other
words, if you’ve been seized, and part of where I’m going with this is that there is a line in Reynolds that
says we draw a divide between criminal and civil cases.
And one of the issues that’s at the core of the viability
of the state secrets privilege and what its implications
are for this case is that, you know, do we treat this as
a typical civil case, or do we treat this as something
different from a civil case that’s on the order of a criminal case, which is sort of your argument?
And I’m just wondering, like in Doe v. Mattis and
Hamdi, those were habeas cases. And if you’ve got a
Fourth Amendment seizure argument, could you bring
a habeas petition?
MS. PLOCHOCKI: Your Honor, I don’t think
that would be the most appropriate claim in this posture because [17] he’s not in the custody of the United
States yet. In fact, the U.S. has chosen to bypass prosecution in the normal custodial, pretrial detention and
instead move straight to summary execution.
JUDGE SRINIVASAN: So there’s a gap between, I mean, if there’s a seizure, there’s a seizure at
the hands of the United States. It’s not at the hands of
somebody else.
MS. PLOCHOCKI: Right.
JUDGE SRINIVASAN: But there’s a gap between an allegation that someone’s been seized and the
allegation that someone’s in custody?

App. 111
MS. PLOCHOCKI: I think that’s correct,
Your Honor. But there’s no form of –
JUDGE MILLETT: What if he was under a
death sentence but released on his own recognizance?
Isn’t that effectively what, under your view, is going on
here?
MS. PLOCHOCKI: Correct, Your Honor. But
presumably in the case where there would be a death
sentence, he would have enjoyed the due process to
which he’s entitled. He has not had the benefit of that.
JUDGE MILLETT: No, no. Just for purposes
of Chief Judge Srinivasan’s habeas, that you could
bring a habeas action. You could essentially say I am
under a death sentence. This is your theory, as I understand it, a deeply [18] unconstitutionally imposed
death sentence would be your argument because I got
no judicial process at all.
MS. PLOCHOCKI: Correct.
JUDGE MILLETT: No charge even. And the
fact that I’m out on my own recognizance, I’m out on,
walking around on my own doesn’t mean I can’t still
challenge that Executive-imposed death sentence.
MS. PLOCHOCKI: Your Honor, he has challenged the Executive-imposed death sentence.
JUDGE MILLETT:

In habeas. In habeas.

MS. PLOCHOCKI: In habeas –

App. 112
JUDGE MILLETT: He’s seized by the Government, and he wants to be seized, and this death sentence follows him wherever he goes, under your theory.
And he’s constantly subject to it. He couldn’t do a habeas action?
MS. PLOCHOCKI: I suppose it’s possible
that he could do a habeas action, but that doesn’t foreclose the relief that he’s seeking here. He’s chosen to
bring a Fifth Amendment claim as well. And it’s on
that basis that he is insisting on disclosure of the basis
for the designation on the kill list and an opportunity
to challenge it.
And so, in this posture, the relief that he seeks is
perfectly available to him. And the formalistic docketing distinction between civil and criminal is not dispositive of the relief to which he’s entitled. In fact, [19] in
U.S. v. Reynolds, the Court said that it would be unconscionable to allow someone who faced potential deprivation of liberty not to have the evidence against him.
The same concerns, of course, animated Roviaro v.
United States in which the Court said that the privilege must give way when the defense requires the evidence. The privilege is also given away, well, classified
information is required –
JUDGE SRINIVASAN: If he sought damages for, if he brought a civil action and sought damages on the theory that being on, allegedly being on the
alleged list causes ongoing distress and for which compensation is owed, then would you say that it’s a formalistic distinction between civil and criminal?

App. 113
MS. PLOCHOCKI: I would say that it would
be a civil claim in which the case precedent clearly establishes the relief would not be allowed. This is different. He is seeking a Fifth Amendment life and liberty
interest here. He’s not looking for damages. And, in
fact, that’s something that I think distinguishes our
case from other state secrets case that are civil.
In this case, he is seeking to interpose himself into
a process that has resulted in his death sentence. It’s
very clear from case precedent that when these kinds
of concerns animate the interests at issue, that due
process [20] must be afforded. And that includes cases
where national security is involved. In Hamdi v.
Rumsfeld, a plurality of the Supreme Court said it
would turn our system of checks and balances on its
head if a U.S. citizen who came to a court couldn’t avail
himself of his due process rights, and that’s all we’re
really seeking here.
As you well know, the Court reaffirmed that in Doe
v. Mattis, a U.S. citizen is entitled to his rights even on
a battlefield. And so in a case where Mr. Kareem’s life
is at stake, those rights are even more acute than they
are when a liberty interest is at stake.
JUDGE SRINIVASAN: Okay. Let me make
sure my colleagues don’t have additional questions for
you before we hear from the Government. And we will
give you some rebuttal time.
MS. PLOCHOCKI: Thank you.
JUDGE HENDERSON:

I don’t.

App. 114
JUDGE MILLETT:

No.

JUDGE SRINIVASAN: Okay, thank you.
Let’s hear from the Government now, and we’ll give
you some rebuttal time, Ms. Plochocki. Mr. Hinshelwood.
ORAL ARGUMENT OF BRAD HINSHELWOOD,
ESQ.
ON BEHALF OF THE APPELLEES
MR. HINSHELWOOD: Yes. Good morning,
Your Honors, and may it please the Court, Brad Hinshelwood for the [21] Government.
I’d like to start where the Court started which is
with standing in this case. Mr. Kareem has not alleged
any facts that would actually link not only the United
States to the specific attacks described in the complaint, but much less that Mr. Kareem is the actual target of those attacks. And we think that’s plain just from
looking at the terms of the complaint itself, which are
framed extremely generally with no specific linkage to
the United States at all and really resolve to a claim
that anyone who has an electronic device who is sort of
generating signals and is in the proximity of both explosions and rebels is therefore plausibly alleging
they’ve been targeted by the United States.
JUDGE SRINIVASAN: So does the allegation of a Hellfire missile bring it closer to the United
States?

App. 115
MR. HINSHELWOOD: Your Honor, it’s certainly true that’s a missile system used by the United
States. As you pointed out, it’s not at all clear what the
basis for that is. And in the reply brief at page 10 I
point out they say, well, Mr. Kareem inferred that on
the basis of the strength of the explosion, the specific
language, because of its strength and the damage it
caused. So, you know, again, even if that allegation is
sort of the lone allegation that brings this any closer to
the United States, that the [22] strength of the inferences that could be drawn from that allegation are not,
are not particularly impressive, nor does it exclude the
possibility of other actors being the relevant actors in
this circumstance given the context in which all of this
is occurring.
You’re talking about a nation that is wracked by
civil war. And as some of the Court’s questions pointed
out earlier. There’s, you know, talking about areas
sometimes where control has just changed hands,
right, where there are other organizations that may
have an interest in engaging in strikes in a particular
area. And –
JUDGE SRINIVASAN: So, can I ask, is your
argument on the fact that, we haven’t crossed the line
from possibility to probability. Is it based on the notion
that yes there’s enough here to say that he was being
targeted but it’s not clear by whom, or is it that there’s
not enough here to show that he was being targeted
because there’s just a lot of activity in the area during
this time. And so even though you have what the plaintiff alleges is more than a random coincidence because

App. 116
it’s five attacks that are on or very close by, that’s still
not enough because of the degree of bombings that
were taking place in the area during this two to three
month period?
MR. HINSHELWOOD: Your Honor, to be
clear, we think it’s both that he hasn’t alleged the
United States was [23] involved in these attacks, and
that he hasn’t alleged enough to show that he was actually the target of these attacks.
And even without considering sort of the fact that
these are areas of active hostilities, you can just, from
the allegations in the complaint see, you know, Mr.
Kareem is not the only individual present for any of
these strikes or any of these attacks. Right? So two of
them are alleged to have hit a building which contains
the On the Ground Network offices apparently among
other things. We’re told the Ojian (phonetic sp.) office
is in the basement and that, you know, there’s more to
the building than just that.
In other circumstances, he’s, you know, interviewing people, he’s sitting in a truck with numerous other,
you know, near other individuals, he’s on a street. He
leaves the street, and then when he comes back there’s
just been an attack. So, you know, in all of these circumstances, he’s not even the only person present,
much less is there anything to suggest that he’s actually the target of any of these specific attacks. And
that’s, you know, before you even get to the fact that we
know that, you know, look, Syria is obviously engaged
in an ongoing civil war, was in 2016 and continues to

App. 117
be to this day. And that obviously plays a role in the
sort of context of inquiry that this Court has to engage
in for assessing the plausibility of allegations in a complaint. And so given [24] the lack of any factual matter
that connects the United States to these attacks or
suggests that Mr. Kareem was –
JUDGE MILLETT: Can I back up there,
just. Let’s assume it was a Hellfire missile. We’ll take
that fact or inference in the light most favorable to the
plaintiff here. Does that tie it to – you’ve got your other
arguments, but I just want to know does that tie it to
the U.S. having done that bombing run, put aside the
target issue?
MR.
HINSHELWOOD: Right.
So,
it
wouldn’t link the United States to any of the other four,
first of all.
JUDGE MILLETT:

That’s not my question.

MR. HINSHELWOOD: I understand. So it
would work as, it would be, it would make it somewhat
more likely that the United States was involved in that
specific attack.
Now –
JUDGE MILLETT: Somewhat more likely,
does that mean, how do we know that other entities or
governments that were engaged in bombing in this
area, that some were using Hellfire missiles? Is that –
MR. HINSHELWOOD: There’s been no allegation the United States is the only entity that uses

App. 118
missiles of that type. So even, again, crediting the idea
that just based off the strength of the explosion we can
conclude that this, that it was a Hellfire missile, even
if you credit that, it doesn’t necessarily lead to the conclusion or, you know, it [25] certainly doesn’t compel
the conclusion, and we don’t think plausibly –
JUDGE MILLETT:

Compel is not the test

here.
MR. HINSHELWOOD:

I understand.

JUDGE MILLETT: Does it move, on this
narrow question of whether that one bombing run was
connected by the, was conducted by the U.S., does it
move that specific factual allegation from possibility to
plausibility because it was a Hellfire missile.
MR. HINSHELWOOD: Your Honor, I don’t
think it would move it even into plausibility. But that’s,
of course –
JUDGE MILLETT:

Because –

MR. HINSHELWOOD: – your question has
assumed that we’re setting aside the question of
whether in that particular attack Mr. Kareem was the
target. Right? So even if –
JUDGE MILLETT: Correct. I’m just, I really
would like a straight answer on the narrow fact of
whether that was a U.S. bombing run, which there are
other facts that have to be added in. Let’s put those
aside. Just on whether that was a bombing run by the
U.S. Does crediting the allegation that it was a Hellfire

App. 119
missile move that particular factual allegation, it was
conducted by the U.S., bombing run conducted by the
U.S. from the realm of [26] possibility into plausibility?
And if not, why not?
MR. HINSHELWOOD: Your Honor, I think
where there’s no allegation, and couldn’t be, frankly, an
allegation that the United States is the exclusive user
of this particular type of weapon –
JUDGE MILLETT: Just user in that area.
Of course, that’s what’s relevant is the exclusive user
in that area at that time.
MR. HINSHELWOOD: Right. There’s also
no allegation to that effect either. If there were an allegation of that type, again, you might be inching closer
with each sort of piece of specificity you can provide.
But where this –
JUDGE MILLETT: I think they do. I mean,
I think they definitely allege, that’s why they, that’s
their evidence that it was the U.S. that did it because
this is their bomb.
MR. HINSHELWOOD: Right, that based on
the strength of the explosion, he assumes it was a Hellfire missile that was launched from a drone –
JUDGE MILLETT:

A U.S.

MR. HINSHELWOOD:

Right, so you know,

again –
JUDGE MILLETT:
yes.

A U.S. missile, sorry, but

App. 120
MR. HINSHELWOOD: Right. Assuming the
sort of, the full chain of inferences that get you to that
point, [27] then, is certainly more likely at that point
that that specific allegation would get you to the claim
that the United States engaged in that particular attack. There’s no question that makes it more likely.
Now, whether or not it makes it plausible, you know,
our position would be still no in that circumstance
given the lack of allegations that support anything
more here. But of course, you know, your question has
assumed and asked me to set aside this sort of –
JUDGE MILLETT:
ble) all that stuff is there.

Yes, I’m not (indiscerni-

MR. HINSHELWOOD:

Absolutely.

JUDGE MILLETT: I’m trying to figure out
what to do with the Hellfire allegation.
MR. HINSHELWOOD: Well, Your Honor,
even there, I think the simplest way to deal with it is
if you think that would suffice for plausibility at the
pleading stage to show that the United States engaged
in that particular strike, and we’ve discussed we don’t
think that’s right. But if you think that’s true, then he
would still have to show plausibly that he was the target of that one particular attack. And there’s nothing
alleged that supports that inference. We know for a
fact there were other individuals present. He talks
about there’s another truck from On the Ground Network sitting nearby. You know, they’re there for, [28]
you know, other, to engage in sort of whatever journalistic activities they were there to engage in. So, you

App. 121
know, there are other individuals in the area. So to suggest that that’s a plausible allegation that he’s been
targeted by that particular attack, there’s nothing to
support that either.
JUDGE HENDERSON: And there’s no allegation that this was the only Hellfire missile on that
particular day.
MR. HINSHELWOOD:

Right.

JUDGE HENDERSON: In other words,
there could have been 20 of them dropping.
MR. HINSHELWOOD: Right. There’s no
sort of information provided in the complaint about –
JUDGE HENDERSON: As far as targeting.
That’s what I’m talking about, the targeting.
MR. HINSHELWOOD: Right. I mean, all
we’re told in the complaint is just specifically that, you
know, he was there. He saw a drone at some time before
the explosion, sometime later, there was an explosion
which he assumes to be from a Hellfire missile because
of the strength of that explosion. And that’s the sum
and substance of the allegation there. We don’t have
any other additional information on that score.
JUDGE SRINIVASAN: Can I take you to
the merits for a second, to the state secrets question
for a second, [29] unless there’s further questions on
standing? So on state secrets, it seems to me a lot of
the force of a state secrets assertion made by the Government here and what affect it has on a case turns on

App. 122
whether we treat this as a civil case or a criminal case,
or, as something that is somewhere in between but for
various considerations, we ought to give it the rubric of
one or the other.
And what do we do with a situation in which it’s
not a garden variety civil case because it’s not seeking
ex post compensation for a civil wrong that was imposed at prior time. It’s also not a garden variety criminal case because the Government’s not seeking to
prosecute somebody. But it is a situation in which the
allegations are that someone’s been placed on a list for
targeted killing by the United States. And so that is a
context in which there’s United States authority being
visited on somebody in the nature of a criminal, the
consequence of a criminal proceeding if it were a capital case. And so does it seem fair to you, then, just to
treat that as a garden variety civil case, given that this
is the context we’re talking about?
MR. HINSHELWOOD: I think it makes
sense to treat it as a civil case for a couple of reasons.
One is that what this Court has recognized and what
the Supreme Court has explained in Reynolds is that
there are important [30] differences between civil and
criminal cases. And that sort of the initiating party in
these cases matters in significant ways. And that’s not
to dispute that, you know, Mr. Kareem has an important interest in these cases. But as this Court has
explained in cases like Halkin II, where what the
plaintiff is essentially asking the Court to do is balance
the importance of their own interest against the Government’s interest in maintaining state secrets, that’s

App. 123
not an appropriate inquiry for application of the privilege.
That inquiry goes to the sort of detail and the care
with which the district court is required to scrutinize
the Government’s indication of the privilege because
the privilege itself is absolute. And that’s because, as I
was referencing a moment ago, when the Government
is sued it doesn’t have the same control over the case
that it does when it brings a criminal prosecution.
Right? The rationale of those cases, as Reynolds explains is that there the Government, in criminal cases,
the Government has the ability to protect information
and to make judgments in the course of charging those
cases and prosecuting those cases that it cannot make
when it’s brought to suit by another plaintiff.
So in these circumstances, and I think Mr.
Kareem’s reply brief is very honest about this, it’s
simply asking, I want you to balance my interest
against the [31] Government’s interest and create a
new rule. That’s exactly what this Court has said in
cases like Halkin you don’t do. The privilege exists, and
it applies in these circumstances, and that it goes to
the way we scrutinize the claims, the claim of privilege.
And the district court here did that, said it was
carefully examining the Government’s declarations to
determine whether the occasion for invoking the privilege was appropriate. It correctly made that determination, you know, for all of the reasons we’ve explained
and that are apparent I think both in the public and
the classified declarations. And in that circumstance,

App. 124
the privilege applies. That’s how the privilege operates
in these cases.
JUDGE SRINIVASAN: So one response to
that is that it’s not the classic situation in which the
Government’s just responding to a lawsuit that’s
brought against it because the offensive move that the
Government made is in the allegation that it put
Kareem on the list. And then once Kareem, and we
take that allegation to be true for present purposes.
Once that has happened, then there’s no, it’s not as if
it’s a responsive offensive case to then bring a civil suit.
It’s just that this is all I have left to do. I’ve got to figure
out some way to try to extricate myself from this predicament I’m in because I think it’s just, it’s just
wrongly founded.
[32] MR. HINSHELWOOD: Your Honor, I
mean, I think the same type of move could be made as
to any sort of claim that seeks prospective relief. So if,
for example, somebody thought they were a target of
surveillance and didn’t believe that surveillance was
appropriate, you know, in that circumstance, they
could come in and say, well, you know, the Government
has made the first move. It started to surveil me. And
in this context, all I can do is bring a civil suit. So, you,
please –
JUDGE MILLETT: Well, let’s just say death
is different, as the Supreme Court has said many
times. And the Government is actually trying, taking
the allegations here, there’s two, the Government is actually trying to kill him. What’s he supposed to do? And

App. 125
let’s say the Government’s made, hypothetically, as he
says, a serious mistake. What is he supposed to do?
MR. HINSHELWOOD: Well, Your Honor, in
that circumstance, it’s not that the state secrets privilege would no longer apply because, again, the type of,
the seriousness of the interest, and again, no one’s disputing the seriousness of Mr. Kareem’s interest, is the
way it functions under the privilege is to calibrate the
inquiry. But as this Court explained in Halkin as well,
when there are, you know, allegations of serious issues
that can’t be addressed as a result of the invocation of
state secrets [33] privilege, the correct recourse is to
the political branches, right, is to ask Congress to engage in some sort of creation of a process, something
like that. It’s not –
JUDGE MILLETT: Sorry, he’s supposed to
try and get a bill passed, and then the Executive
Branch would say Congress can override the Executive
Branch’s judgment about state secrets? That’s your position?
MR. HINSHELWOOD: Your Honor, exactly
the contours of what Congress could or could not do in
this area would be –
JUDGE MILLETT:
Come on.

No, no, no, no. Come on.

MR. HINSHELWOOD:

Your Honor –

JUDGE MILLETT: That’s, so you’re targeting me to kill me without any process. And let’s say I’ve
gotten past standing. My car keeps blowing, I’m here

App. 126
in the U.S. and my car keeps blowing up and I keep
getting shot at. And I say the only explanation for this
is I’m on a kill list by the U.S. Government. And let’s
also assume hypothetically that I actually am on a kill
list by the U.S. Government. And the Government’s position is touch luck. You have no rights. You have no
capacity to get yourself off that list. I mean, you can
write letters to the Government.
MR. HINSHELWOOD: Your Honor, I think –
JUDGE MILLETT: But that’s it. The Government may [34] execute me, and there’s nothing anyone, I can do to stop it or anyone can do about it.
MR. HINSHELWOOD: Your Honor, I think
it’s important to tease the Court two different things
that I think are in your question. So one is, I think part
of your question is getting to some of the political question doctrine issues in this case, which we –
JUDGE MILLETT: I’m just asking you is
that your position that there’s nothing I can do about
it? That’s just a bottom-line question.
MR. HINSHELWOOD: Excuse me, an individual in Mr. Kareem’s position?
JUDGE MILLETT:
kill list under this question.

My position. I’m on the

MR. HINSHELWOOD: Okay. So an individual on the kill list, you know, hypothetical kill list overseas –

App. 127
JUDGE MILLETT: Oh, no, no. Under my
hypothetical, I am actually on the kill list.
MR. HINSHELWOOD:
JUDGE MILLETT:
turns out I am.

Right.

I suspect I am, and it

MR. HINSHELWOOD: Okay. In that circumstance, whether the Government both for reasons
of a court’s competence to adjudicate those kinds of
questions, which gets to the political question issues,
and the Court’s [35] ability to adjudicate claims where
the Government has properly invoked the state secrets
privilege, and a court has properly determined that the
Government has invoked that privilege, then –
JUDGE MILLETT: Then the answer is
there’s nothing I can do about it.
MR. HINSHELWOOD:
you can get from –

There’s no recourse

JUDGE MILLETT: There’s no difference between my, for your political question theory, there’s no
difference between me and Mr. Kareem.
MR. HINSHELWOOD: If we’re talking
about, you know, a U.S. citizen who is in Syria –
JUDGE MILLETT: No, no. No, no. I don’t
understand why from political question. There’s nothing in your briefing that says it turns on his location.
So I’m extending it to someone on U.S. soil. Nothing in
your briefing turns on where his location is at all. If

App. 128
that’s a factor now, you can tell us. But I assume it’s
not for state secrets.
MR. HINSHELWOOD:
state secrets, no.

Certainly not for

JUDGE MILLETT: All right. So then what,
so you would still argue political question, just as you
do here. And you would argue state secrets just as you
do here. And [36] if we rule for you, that means I’m
hosed. Nothing I can do about this death sentence.
MR. HINSHELWOOD: Certainly as to the
state secrets privilege. What that, the invocation of the
privilege in this particular case means that the case
cannot proceed. Now, again, whether that could be different –
JUDGE MILLETT: Not just that – no, no.
What difference? What difference is it if me rather
than Mr. Kareem and I’m here in the U.S.?
MR. HINSHELWOOD: Your Honor, I’m
sorry. I don’t want to suggest that there’s, just to speak
about how the privilege applies in these cases, if your
question is can a court once the privilege is properly
invoked, which is an absolutely privilege that the Government is able to invoke in this litigation, can a court
then proceed to adjudicate the merits nevertheless or
disregard the Government’s application of the privilege, an invocation of the privilege in that circumstance, the answer is no.

App. 129
Now, as a result, as this Court explained in Halkin,
the result may be that meritorious constitutional
claims don’t get litigated, and that the consequences –
JUDGE MILLETT: This is killing U.S. citizens. That’s quite a power to say that the Executive
Branch has and it’s absolutely unchecked. There’s no
capacity whatsoever for judicial review, for a habeas
action, or this [37] type of civil action which is a functional equivalent of a habeas action. There’s nothing
whatsoever. There’s no precedent for that. You’ve got
precedent generally on state secrets, but you’ve got
nothing that says executing U.S. citizens, my hypothetical is on U.S. soil. This case involves not on U.S. soil.
MR. HINSHELWOOD: Your Honor, certainly there is no specific case that has addressed this
specific type of claim. But the point is that the privilege
itself, the very premise –
JUDGE MILLETT:

No –

MR. HINSHELWOOD:
privilege –

– the rationale of the

JUDGE MILLETT: Do you appreciate how
extraordinary that proposition is, that the U.S. Government can, the Executive Branch can unilaterally decide to kill U.S. citizens, and you’ve given me no basis
for distinguishing it even here on U.S., that power existing even here on U.S. soil without any process whatsoever. That would make a lot of things a lot easier.
MR. HINSHELWOOD: Your Honor, I don’t
mean to suggest that the analysis, if you were

App. 130
adjudicating such a case, would be different as to a person on U.S. soil. You know, we obviously haven’t –
JUDGE MILLETT:

Right. You don’t think –

[38] MR. HINSHELWOOD: – addressed
that question here. My point is simply that as to the
state –
JUDGE MILLETT: Is there anything in
your arguments that would change based on whether
it’s U.S. soil? I didn’t see anything at all that turned on
that.
MR. HINSHELWOOD:
tainly didn’t –

Your Honor, we cer-

JUDGE MILLETT: Is it less of a political
question if it’s on U.S. soil in your theory?
MR. HINSHELWOOD: Your Honor, you
know, whether or not there would be some differences,
I simply don’t have the, you know, we haven’t had to
address any of that at this point. But I take your questions to get to a significant concern that obviously engaging in a strike of this nature is a serious
undertaking. And there’s no question that’s true. And
the Government absolutely agrees that in this circumstance the district court has an important role to play
in taking a careful look at the Government’s assertion
of the privilege to ensure that it is appropriate in the
circumstances.
JUDGE SRINIVASAN:
tion –

May I ask this ques-

App. 131
MR. HINSHELWOOD:
question –

And there was no

JUDGE SRINIVASAN: Can I ask this question? So in Hamdi, if the Government, there was no
state secrets assertion in Hamdi. But if the Government had asserted the [39] state secrets privilege,
would the result have been that the habeas case goes
away and that the detention authority continues to exist?
MR. HINSHELWOOD: Your Honor, I’m not
sure how that would have sort of played out in those
circumstances because, remember, it’s dependent on
the specific facts that are and information that is removed from the case on the basis of the privilege. So
here, Mr. Kareem cannot demonstrate even his standing without information covered by the privilege, or,
nor for that matter can, it can be demonstrated
whether or not he has standing at all. So or not he’s on
the, was the target of the –
JUDGE SRINIVASAN: Right. I guess I’m
just hypothesizing a situation in which the Government would say that we can’t get into whether, we can’t
get into the bona fides of the determination that Mr.
Hamdi’s an enemy combatant because if we did that,
then it would reveal too much, and there’s military secrets in play, and the proceeding just can’t go forward
in any way that would allow us to shed light on the
decision-making there. And therefore, it’s a military secret under Reynolds, and therefore the proceeding just
stops. It’s not criminal. It’s civil because habeas is a

App. 132
petition that’s filed by the detainee not an inquiry
that’s launched by the Government. And therefore,
there’s nothing further, we just continue to [40] detain.
MR. HINSHELWOOD: Your Honor, again, if
the sort of occasion for invocation of the privilege is appropriate, then the consequences that flow from that
are the consequences that flow from that. But of
course, as we know, in the habeas context, the Government has proposed to the district court, and then ultimately has proceeded to litigate under certain
protections those habeas petitions, over the last decade. But –
JUDGE SRINIVASAN: Without ever asserting the state secrets privilege as far as I know. Is that,
I’m not aware of, I could be wrong about that, but I’m
not aware of it.
MR. HINSHELWOOD: Right. It’s not asserting the state secrets privilege in that context. Now,
all that goes to show is that those cases don’t have
much to say about what happens when the Government does properly invoke the privilege. And we know
what the answer to that question is because of the Supreme Court’s decision in Reynolds, and all of this
Court’s cases which have repeatedly echoed the basic
premise that the particular strength of the interest
goes to the scope of the inquiry and not to the availability of the privilege in the first instance.
JUDGE SRINIVASAN: Okay, thank you.
Let me make sure my colleagues don’t have further
questions for you, Mr. [41] Hinshelwood.

App. 133
JUDGE MILLETT: Do you think there’s any
reason, since he seems to be in the custody of a terrorist organization, should that affect us going forward
with this case since it’s a case just for injunctive relief ?
MR. HINSHELWOOD: Your Honor, I don’t
know the details of Mr. Kareem’s present situation,
and so I’d be hard pressed to provide any guidance on
that. You know, obviously his counsel would be better
positioned to give you whatever his current status is.
JUDGE SRINIVASAN: Thank you, Mr. Hinshelwood. Ms. Plochocki, we’ll give you your two
minutes of rebuttal.
ORAL REBUTTAL OF TARA J. PLOCHOCKI, ESQ.
ON BEHALF OF THE APPELLANT
MS. PLOCHOCKI: Thank you, Your Honor.
I think the Government’s argument has just made
pretty clear that there are no circumstances under
which it would permit a U.S. citizen to challenge his
designation on the kill list. In order to have standing,
the Government seems to think that Mr. Kareem needs
to provide the make and model of the missiles fired at
him. Of course, that’s not a reasonable expectation. In
the circumstances that he is in, he has provided all of
the circumstantial evidence that’s available to him to
make his claim. The case law says that when a plaintiff
alleges, as Mr. Kareem has done here, that [42] discovery will reveal additional evidence, and all of the other
relevant evidence is in possession of defendants that
he has pleaded facts sufficient to support standing.

App. 134
Moreover, the Government’s argument that this is
a political question is deeply disturbing, as this Court
has recognized in El Shifa and Al Jaber, the Court was
asked to review the merits and the wisdom of military
judgments. This is an ordinary due process claim, and
the Court has a role to play here as it would in any
other due process scenario. It’s a purely legal issue, and
the Government has offered no limiting principle, as
this Court has observed on whether and when it can
kill U.S. citizens. So whether that’s in a parking lot in
the United States or abroad in Syria, the Government
has claimed for the first time ever in this case that it
has unfettered and unreviewable discretion to kill U.S.
citizens at will.
If the Court adopts the Government’s argument,
that would ultimately extinguish the Fifth Amendment due process right that any U.S. citizen has. So we
request that this Court remand to the district court
with instructions to proceed to discovery.
JUDGE SRINIVASAN: Thank you, counsel.
Thank you to both counsels. We’ll take the case under
submission.
(Whereupon, the proceedings were concluded.)

[Digitally Signed Certificate Omitted]

